<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION BILL: LAYING THE FOUNDATION FOR U.S. ECONOMIC GROWTH AND JOB CREATION, PART 2</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                 SURFACE TRANSPORTATION REAUTHORIZATION
                  BILL: LAYING THE FOUNDATION FOR U.S.
                   ECONOMIC GROWTH AND JOB CREATION,
                                 PART 2

=======================================================================



                                (114-8)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                              
                   TRANSPORTATION AND INFRASTRUCTURE
                   
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                  _________
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-775 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Hon. Patrick McCrory, Governor, State of North Carolina, on 
  behalf of the National Governors Association:

    Testimony....................................................     3
    Prepared statement...........................................    51
    Responses to questions for the record from Hon. David Rouzer, 
      a Representative in Congress from the State of North 
      Carolina...................................................    63
Hon. Ralph Becker, Mayor, Salt Lake City, Utah, on behalf of the 
  National League of Cities:

    Testimony....................................................     3
    Prepared statement...........................................    66
Hon. John Cox, Director, Wyoming Department of Transportation, on 
  behalf of the American Association of State Highway and 
  Transportation Officials:

    Testimony....................................................     3
    Prepared statement...........................................    83

                       SUBMISSIONS FOR THE RECORD

Anthony J. Tata, Secretary, North Carolina Department of 
  Transportation, on behalf of Hon. Patrick McCrory, Governor, 
  State of North Carolina, response to request for information 
  from Hon. John L. Mica, a Representative in Congress from the 
  State of Florida...............................................    14

                        ADDITIONS TO THE RECORD

Mark Steffenson, Mayor, City of Maple Grove, Minnesota, and 
  Jeffrey Lunde, Mayor, City of Brooklyn Park, Minnesota, on 
  behalf of the North Metro Crossing Coalition, written statement    91
National Congress of American Indians, written testimony.........    93
Rhonda Sivarajah, Chair, Board of County Commissioners, Anoka 
  County, Minnesota, written testimony...........................    97
Spirit Lake Road Department, Spirit Lake Nation, Tribal 
  Transportation Program Road Funding Needs, updated February 10, 
  2015...........................................................    99
  
[GRAPHIC] [TIFF OMITTED] 


 
SURFACE TRANSPORTATION REAUTHORIZATION BILL: LAYING THE FOUNDATION FOR 
             U.S. ECONOMIC GROWTH AND JOB CREATION, PART 2

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. I want to 
welcome everybody here today. I guess it is appropriate to say 
top o' the morning on this St. Patrick's Day. I notice that our 
three witnesses, none of them have green on. Mayor, is that 
green? I cannot tell. But with the last name of McCrory, you do 
not need to wear green. We know you are Irish. There you go.
    But again, it is great to have you here. Our witnesses are 
the Honorable Patrick McCrory, who is the Governor of the State 
of North Carolina, testifying on behalf of the National 
Governors Association; the Honorable Ralph Becker, mayor of 
Salt Lake City, Utah, testifying on behalf of the National 
League of Cities; and the Honorable John Cox, who is the 
director of the Wyoming Department of Transportation, 
testifying on behalf of the American Association of State 
Highway and Transportation Officials. Thank you all for being 
here today. We really look forward to hearing from you.
    This is our second hearing on the surface transportation 
reauthorization, which is one of our committee's top 
priorities. And it should be; it is a top priority for the 
Nation. We are actively working together with Ranking Member 
DeFazio and both sides of the aisle, working with our 
leadership in the House and the Senate, the Ways and Means 
Committee, and others to figure out the funding issues.
    And because both sides of the aisle, both sides of the 
Capitol, and both ends of Pennsylvania Avenue are talking about 
the need for a long-term transportation or surface 
transportation bill, I feel confident we will get there, making 
the investments we need to make sure America is competitive and 
continues to improve the quality of life for Americans.
    So again, I look forward to hearing from all of you today, 
and with that, I will yield to the ranking member, Mr. DeFazio, 
for an opening statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Having got here not 
very long ago due to a delayed flight, I forgot about the 
green. And I am half Irish, DeFazio, O'Shea, Crowley, and 
Buono. So I actually did bring, though, a green and yellow 
chart. So if I could have the green and yellow chart from the 
woman dressed all in green.
    The green and yellow chart you see before you in honor of 
St. Patrick's Day--here is your version so you do not have to 
crane your neck, Mr. Chairman--shows the dependence of the 
States on Federal funding. And as you can see, it is generally 
about--the average is 51 percent. Many States are--we have 87, 
is I believe, the highest--well, no, 93 for Alaska, 79 over 
there for South Carolina. These are very high numbers. Oh, 
Rhode Island, 102. Oops, sorry about that.
    So this is what happens if there is a shortfall--that is 
good. Thanks, Helena--in Federal funding. The chairman already 
referenced his desire, our common desire, to do a very robust 
6-year reauthorization with adequate funding. I expect funding 
will be one of the linchpin issues. I will not go into the 
options that are out there, but there are options to move us 
forward with more robust funding.
    But what I will say is that spring starts in a week, and 
that really is the traditional beginning of the construction 
season for the year. And States have already notified the 
Federal Government that they will be delaying or postponing or 
canceling projects. And I expect the number of canceled or 
delayed projects will grow very, very quickly over the coming 
weeks if we do not have a short-term bill.
    Yes, we have a common objective on a 6-year bill. But just 
to get to the end of this year with anemic levels of spending 
would require $10 billion, just slightly less than $10 billion.
    So we need some sort of a commitment from the Federal 
Government in the next week or two or three of $10 billion or 
we will see a dramatic dropoff in construction activity this 
summer, costing the country jobs, costing the country needed 
investment, and actually causing higher future costs because 
much of this infrastructure is deteriorating at a rate that 
accelerates at certain points in its deterioration, where 
suddenly what was a million-dollar problem last year becomes a 
$5 million problem this year and becomes a bridge replacement 
problem next year.
    So I feel a tremendous sense of urgency. I did have an 
opportunity, since I spent so many hours getting here 
yesterday, to read all your testimony. I find much to agree 
with in there, and look forward to hearing more about it.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. DeFazio.
    I now ask unanimous consent that our witnesses' full 
statements be included in the record, without objection, so 
ordered. We would like you to keep your oral testimony to 5 
minutes. And again, your full testimony will be in the record.
    I understand, Governor, you have to leave at 10:45, and I 
have to leave at 10:45. So you and I can depart together.
    For those Members that do not get an opportunity to ask the 
Governor questions, hopefully we can submit them in writing to 
him and we can get answers on it. And again, I ask all Members 
to abide by the 5-minute rule.
    And I would now like to call on Mr. Meadows from North 
Carolina to introduce the Governor.
    Mr. Meadows. Thank you, Mr. Chairman. It is my honor to 
introduce my Governor from the great State of North Carolina. 
And not only does he come to us with great experience as a 
Governor, but having served as a mayor, as a businessman, I 
know full well, Governor, that you understand transportation 
because you have traveled from Murphy to Manteo, some 545 
miles.
    To put it in perspective, that is like going from 
Washington, DC, to Maine. And if you can put all the different 
roads and different avenues of transportation that you would 
encounter from Washington, DC, to Maine, that is similar to 
what we have in North Carolina.
    So as a pro-growth, as a guy who is focused on jobs and 
knowing the importance of that connection, it is my honor to 
welcome you here and introduce my friend and our Governor, 
Governor Pat McCrory.
    Mr. Shuster. Thank you very much. And Governor, with that 
you can----

  TESTIMONY OF HON. PATRICK MCCRORY, GOVERNOR, STATE OF NORTH 
CAROLINA, ON BEHALF OF THE NATIONAL GOVERNORS ASSOCIATION; HON. 
  RALPH BECKER, MAYOR, SALT LAKE CITY, UTAH, ON BEHALF OF THE 
NATIONAL LEAGUE OF CITIES; AND HON. JOHN COX, DIRECTOR, WYOMING 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
   ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Governor McCrory. Well, thank you very much, Chairman 
Shuster, Ranking Member DeFazio, and members of the House 
Transportation and Infrastructure Committee. And I would like 
to also thank my good friend Mark Meadows. And I would like to 
also give my best to David Rouzer, who served in our North 
Carolina legislature. And I also see my old friend from South 
Carolina, the Myrtle Beach area. It is great to have you here, 
and it was great getting to know you many years ago.
    I am speaking on behalf of the National Governors 
Association, and I am also speaking on behalf of the citizens 
of North Carolina. Most people do not realize this, but North 
Carolina now is the ninth most populous State in the United 
States of America. And I do not think they know that in 
Washington or New York, but we know it in North Carolina.
    We are a very diverse State with a lot of transportation 
infrastructure needs. And I would like to thank you all for 
working on behalf of our State and all States in the United 
States.
    I want to urge the Congress to pass a long-term Federal 
transportation reauthorization bill that provides States 
certainty and flexibility. And we need to make sure that we 
then make efficient use of transportation dollars that we use, 
just like we do with our own State dollars.
    In North Carolina, we recognize that transportation 
infrastructure plays a crucial role in attracting business, 
supporting the significant military presence in our State, and 
connecting people to health care, educational opportunities, 
jobs, and recreation.
    In fact, just last summer Sealed Air announced it was 
bringing 1200 jobs to the Charlotte region, and specifically 
cited our surface transportation network, particularly 
Charlotte Douglas International Airport, as a major factor in 
the decision.
    North Carolina maintains the second largest highway system 
in the country. Our ferry division is the second largest State 
owned and operated system in the country, and we also operate 
two major ports and support 99 public transit systems.
    The majority of our Federal transportation dollars are 
needed to maintain this vast network. Much of our Nation's 
transportation infrastructure, as you know, is crumbling, and 
many aging structures and systems are unable to fill the 
modern-day demands.
    States have to become more creative with our transportation 
dollars, and so does the Federal Government. In North Carolina, 
we have devised a mobility formula that ranks transportation 
projects on objective criteria based upon whether the projects 
relieve congestion, improve safety, and/or foster economic 
development. With this new approach, we will fund approximately 
30 percent more projects during the next 10 years than we would 
have under the old, more political formula.
    As mayor of Charlotte, I implemented a 25-year 
transportation plan, and now Charlotte is in the 18th year of 
that plan. Similarly now as Governor of North Carolina, I 
recently unveiled a 25-year transportation vision for the 
entire State that identifies and now hopefully will implement 
our future infrastructure needs.
    Long-term investment in roads and bridges requires long-
term planning. We are now moving to consider innovative funding 
options for implementing our 25-year plan in the State of North 
Carolina. We seek to leverage historically low interest rates 
by authorizing a $1.2 billion transportation bond to the 
voters, hopefully this year. We are also working to stabilize 
our gas tax revenue and are exploring alternative sources of 
funding such as expanding State revenue-sharing from offshore 
energy production.
    Despite our creative efficiencies, our efforts still fall 
far short of our needs. The funding sources we have available 
today in North Carolina will fund only about 18 percent of our 
transportation needs during the next decade. Twenty-eight 
percent of our transportation budget is Federal.
    By the way, I also want to add that one-third of our 
transportation budget is currently in litigation, which is 
another issue I would be glad to talk to you about in the 
future.
    While we are doing our part to address this shortfall, we 
still need support from a strong and reliable Federal partner. 
I am not here to endorse devolution of the Federal program, but 
to advocate for strengthening the Federal/State partnership and 
relationship. Elimination of the Federal program would be 
catastrophic to our State and many States throughout the United 
States, and not only to North Carolina, but everywhere, to the 
country at large.
    Consider that North Carolina is home to 7 military bases 
that are the headquarters for some of the Nation's most vital 
commands and 110,000 active duty personnel. Failure to invest 
in surface infrastructure that delivers freight to our military 
and provides deployment access points will degrade our Nation's 
military readiness.
    I consider myself an Eisenhower Republican. I have said 
that since I was mayor for 14 years, and am now in my third 
year as Governor of North Carolina. And it is no surprise that 
a military person, President Dwight David Eisenhower, is the 
father of our interstate system. His vision connected America's 
East to the West, the North to the South, rural and urban. 
Connectivity is what it is all about. He knew that without the 
unifying force of transportation, and let me quote, ``we would 
be a mere alliance of many separate parts.'' That also applies 
to North Carolina's 100 counties.
    Similarly, our strategic long-term plan in North Carolina 
will connect the far west of our State, in Congressman Meadows' 
district, to Congressman Rouzer's district in the east. In 
2012, Congress passed MAP-21, which authorized highway and 
transit laws for 2 years and was extended last summer for 10 
months.
    Without your action, as the chairman mentioned, the 
extension will expire in a short 10 weeks. Important surface 
transportation programs will halt at the height of the 
construction season, risking thousands of jobs and disruption 
to important projects.
    I am here on behalf of all the Governors. And I know my 
time is up. We need action now. And I want to do everything I 
can as the Governor of the ninth largest State to support that 
action and to come up with viable solutions for the long term.
    Thank you very much, Mr. Chairman.
    Mr. Shuster. Thank you, Governor.
    And with that, Mayor Becker. Your city is the fifth fastest 
growing city in America, I understand, so we want to hear what 
you are doing in Utah, and give us some guidance here in 
Washington.
    Mr. Becker. Thank you, Chairman Shuster, and thank you so 
much----
    Mr. Shuster. Can you pull the mic a little closer to you?
    Mr. Becker. OK. Thank you.
    Mr. Shuster. It moves.
    Mr. Becker. Oh, it does. There we go. OK. Thank you. Thank 
you, Chairman Shuster, and it was a pleasure having you in our 
community last year. And I hope it was worthwhile for you as 
well. Ranking Member DeFazio, thank you as well, and other 
members of the committee.
    I am Ralph Becker. I am the mayor of Salt Lake City and the 
president of the National League of Cities, NLC. NLC is the 
Nation's largest membership and advocacy organization for city 
officials, serving as a resource for 19,000 cities, towns, and 
villages across the country, and representing more than 218 
million Americans.
    As the mayor of Salt Lake City and president of NLC, I have 
seen what can be achieved when partisanship takes a back seat 
to policy. Last week I was honored to welcome the President to 
our annual Congressional Cities Conference, where he made clear 
his commitment to our infrastructure needs. And of course, we 
are grateful to have one of our own, the former mayor of 
Charlotte, Anthony Foxx, serving as Secretary of 
Transportation. So obviously, the mayor of Charlotte is a big 
steppingstone for folks from that great city.
    The visibility of the dialogue between leaders on this 
committee and Secretary Foxx at the Department of 
Transportation is encouraging. We are hopeful that Congress and 
the administration can work productively together to craft a 
legislative solution that avoids the chaos and the crisis we 
would endure if the surface transportation programs are 
permitted to expire.
    Among local officials, no Federal priority rates as 
consistently high as transportation infrastructure. That is 
because for cities, every transportation project is a 
partnership--with other local and regional authorities, with 
the State, with the Federal Government, and with the private 
sector. This is certainly the case for our transportation 
initiatives in Salt Lake City.
    For example, few would have predicted a generation ago that 
Salt Lake City would become one of the light rail capitals of 
the Nation or that we would bring streetcars back to our city. 
But our TRAX light rail system, our Sugar House Streetcar, and 
our Bike Share program reflect some of the changes our Nation 
is experiencing in metropolitan areas all across the country.
    By necessity, locals are stretching the value of every 
dollar to invest in small- and large-scale projects of 
practical design. We are making existing corridors more 
efficient and multimodal, and doing so in ways that increase 
capacity at less cost to the taxpayer. These locally driven 
solutions are offering more travel options to the public, 
helping shippers and businesses keep goods and products moving 
and delivering a bigger boost to investors, developers, and our 
economies overall.
    Unfortunately, uncertainty at the Federal level is driving 
up the cost of financing and stalling projects, and many States 
are compounding the problem by limiting the authority of 
municipal governments to raise new revenue through taxation. 
Since 1978, 30 States have enacted formal limitations on taxes, 
budgets, or outlays on local governments.
    As you know, when the Federal Highway Act was signed into 
law in 1956, it was federally planned and coordinated. But it 
responded to urgent local needs, calling for cities and towns 
to be better connected. Today this vision needs an update.
    Technological advances and demographic shifts are 
challenging the assumptions on which our current system is 
based. Smartphones have enabled users to access transit 
information in real time, raising expectations for reliable and 
on-demand service. Electric cars are becoming more viable and 
less expensive. And autonomous vehicles, driverless cars, are 
being developed as we speak, as the chairman knows well. Our 
transportation systems will need to adapt to these 
developments.
    Demand for public transit and active transportation is also 
rising at a rate that is way beyond current capacity. The 
greatest demand and energy for transportation improvements in 
Salt Lake City comes from transit, biking, and pedestrian 
improvements.
    Transit agencies have reported growth in ridership in 12 of 
the last 15 years. Currently there are 99 transit expansion 
projects and 23 major system renovations underway throughout 
the country in addition to almost 100 other projects in the 
pipeline.
    Young people aged 16 to 34 drove 23 percent fewer miles, on 
average, in 2009 than in 2001. In that same age group, only 67 
percent of Americans have driver's licenses. And according to 
the 2009 National Travel Survey, 1 in 12 U.S. households is 
completely car-free.
    From 2000 to 2012, the number of people who primarily bike 
to work has increased 60 percent nationwide. In larger urban 
areas, the number of bike commuters has more than doubled. Bike 
share systems have become commonplace, with 49 American cities, 
including Salt Lake City, implementing new systems, and many 
more in planning phases.
    I know that the safe and efficient movement of commercial 
goods is also high on the agenda for the next authorization. 
Every link in the movement of goods, from ports, agricultural 
centers, and manufacturing plants to their destination should 
be strong. But our first and last miles are falling behind.
    The Federal Government is devoting a significant investment 
to the modernization of U.S. ports to accommodate Supermax 
container ships and assure America's global economic 
leadership. Investment in the roads between our ports and 
highways should be made in conjunction with ports 
modernization. But unfortunately, these municipally owned 
stretches of road are among the most neglected.
    None of this is to express preference for any particular 
mode. In Salt Lake City, for example, we need all of our modes 
functioning at a high performance level, and I know that is the 
case in all of our cities across the country.
    We now have more choices than ever, but our authorized 
transportation system at the Federal level does not reflect 
this shift. And in Salt Lake City, where 55 percent of our air 
pollution is from mobile sources, we need all the choices we 
can get. So however the future of transportation unfolds, we 
know the committee will need to balance investment with 
maintenance.
    Local governments own and operate 78 percent of the 
Nation's road miles, 43 percent of the Nation's Federal aid 
highways, and 50 percent of the Nation's bridge inventory. 
However, over the past 20 years, roughly 80 percent of all 
funding has consistently been reserved for the highway system. 
And although the remaining 20 percent is theoretically devoted 
to transit and other alternative transportation programs, it is 
not easy to steer funding that passes through State departments 
of transportation away from auto-oriented projects.
    Congress ought to fix this imbalance. The next 
transportation bill should directly allocate greater funding to 
local governments and provide more flexibility for local 
decisionmakers to choose the best mix of transportation options 
to fit regional needs.
    NLC is working in partnership with the other major local 
government organizations to build support for a much-needed 
course correction, not a radical departure from the current 
authorization. My written testimony includes four specific 
proposals supported by NLC, the U.S. Conference of Mayors, the 
National Association of Counties, the National Association of 
Regional Councils, the Association of Metropolitan Planning 
Organizations, and the National Association of Development 
Organizations.
    Our proposal would reorient Federal transportation policy 
toward cities and metropolitan areas, where the changes in the 
transportation market are happening, and they would strengthen 
the partnership among all stakeholders to improve the quality 
of project selection, the practicality of design, and the value 
of every dollar spent.
    On behalf of the National League of Cities, I would like to 
offer the ongoing assistance of the elected and appointed 
officials from our members and staff as you pursue the long-
term, well-funded transportation reauthorization we all seek 
and for which we all strive. Let us know how we can help. Thank 
you.
    Mr. Shuster. Thank you, Mayor.
    And with that, Director Cox, please proceed.
    Mr. Cox. Chairman Shuster and Ranking Member DeFazio, 
members of the committee, my name is John Cox and I am serving 
as president of the American Association of State Highway and 
Transportation Officials or AASHTO, which is much easier to 
say. I have also had the privilege of serving as the Wyoming 
Department of Transportation director for just a little bit 
over 10 years.
    My main message this morning is to urge prompt action on a 
well-funded, long-term highway transit and highway safety bill. 
Our country needs a Federal transportation system program with 
robust investment levels coupled with long-term funding 
stability. Furthermore, the program should provide States with 
flexibility by preserving the percentage of funds distributed 
by formula, and by streamlining regulations and program 
requirements.
    Throughout our country's history, transportation has played 
a pivotal role in the success of our economy. While States have 
done a great job of addressing transportation within their 
boundaries, there is clearly a need for a cohesive national 
transportation system.
    In Wyoming, for instance, I-80 stretches 401 miles across 
the southern part of the State. Over half of the traffic on 
this route is trucks, and over three-quarters of that truck 
traffic is in transit through Wyoming between Midwest markets 
and west coast ports, carrying all manner of goods, from 
agricultural commodities to raw materials and manufactured 
goods. This traffic, which is national commerce, would not be 
possible without an effective interstate transportation system.
    As you know, our national highway program at its core is a 
federally funded, State-administered program based on a 100-
year-old partnership between the Federal Government and State 
DOTs. The State department of transportation plays a critical 
role in ensuring a safe, reliable, and efficient transportation 
network.
    In 2013, my Governor, Governor Matt Mead, sought to 
establish a sustainable State funding base for transportation 
projects by signing a 10-cent increase in the State motor fuels 
tax law. Supported by business and civic groups like the 
Wyoming Taxpayers Association, and with strong legislative 
leadership, this action has allowed us to raise over $70 
million per year to invest in both State and local 
transportation infrastructure.
    Dozens of other States are successfully adopting 
legislation that increases revenue for transportation 
investment. But it is important to note that States take action 
to supplement the Federal program and not as a substitute for 
it.
    State departments of transportation have strong 
partnerships with local governments in their respective States. 
The transportation planning process requires our DOTs to work 
extensively with local planning agencies and the public in 
developing multimodal transportation plans and identifying 
projects that are supported by Federal dollars.
    This process works, and it is the foundation of the 
performance-based program requirements that were established 
2\1/2\ years ago in MAP-21. State DOTs have strong, productive 
partnerships with local governments, and the transportation 
planning process is working well. We would not alter the 
federally funded, State-administered nature of the program.
    Before closing, let me comment on some regulatory points. 
We need to be careful when it comes to developing and 
implementing Federal regulations. A number of currently 
proposed rules would impose new requirements, increasing 
administrative costs at a time when construction inflation eats 
away at the flatlined Federal funding level.
    One proposed rule would have States collect multiple data 
items for all public roads, including unpaved and low-volume 
roads. Scarce dollars would be much better used on road and 
bridge projects. Simply put, we need to continue working on 
reducing administrative burdens and maximizing actual 
transportation outcomes and services from Federal program 
dollars.
    MAP-21 made significant changes in the project delivery 
process to accelerate the speed at which we can maintain and 
improve highway and transit projects. We can build on this with 
additional streamlining provisions in the next bill, and we can 
propose streamlining ideas.
    To conclude, AASHTO remains committed to helping Congress 
pass a robust, long-term surface transportation bill as soon as 
possible. The current extension expires in the middle of this 
spring construction season, and already several State DOTs are 
postponing needed projects because of the unpredictable Federal 
funding.
    For example, Tennessee, Arkansas, and my State, Wyoming, 
have already postponed multiple projects, ranging from $28 
million in Wyoming to $400 million in Tennessee, because of the 
uncertainty in Federal funding. The sooner Congress acts, the 
greater the likelihood that these important projects will not 
be pushed back another year.
    Mr. Chairman and committee, I want to thank you again for 
the opportunity to testify today, and I look forward to the 
questions.
    Mr. Shuster. Well, thank you all very much. And it is 
really important having you here, the three of you. You are the 
front lines out there. You see the problems firsthand, whether 
it is streamlining--and one of my focuses is going to be the 
streamlining to build on what Chairman Mica did in MAP-21. And 
I think there are important reforms in that. Some of those are 
being implemented today, slowly; some of them are being 
implemented in ways that we are going to have to tighten up the 
law to make sure that streamlining occurs.
    But every time we do a Federal surface transportation bill, 
there are those that talk about eliminating the Federal role. 
And I think you all three made it pretty clear. But if that 
were to happen, can you give us some specifics on what the 
outcomes would be if we were to eliminate the Federal role, 
which of course I do not advocate, but just so folks 
understand. And you are the folks that know what is going to 
happen out there.
    So Governor?
    Governor McCrory. Well, it is obvious there would be major 
financial implications. And you know the numbers on what it 
looks like for each State. But I think it really goes back to 
the whole connectivity issue.
    One of our country's biggest challenges and my State's 
biggest challenge is connecting economic regions with other 
regions that are not faring as well during this recovery. And 
if we have hodgepodge type of planning up and down the east 
coast or going east to west or north to south, you are going to 
have major segments of our transportation system in turmoil, 
which will impact the trade and commerce of the United States, 
and also impact the environment of the United States.
    So I believe in an interconnectivity plan, connecting East 
with West, North with South, rural with urban, ports with areas 
of commerce, and the list goes on and on. And if we do not have 
that Federal presence, I think we would go back to a system in 
which there is not a clear planning, and I think there would be 
a waste of dollars on roads and other infrastructure that do 
not have an interconnectivity to other investments, both the 
Federal, State, and local governments.
    Mr. Shuster. Mayor?
    Mr. Becker. Thank you. I think I would just add that if you 
look at, as I know we all have, the history of the Federal role 
around transportation in this country, it goes all the way back 
to the beginning. The Federal Government played the key roles 
in canals and then in railroads and then obviously with the 
Interstate Highway System and with the transit system.
    And as we are moving into this new arena, I think our 
Federal partnership is needed more than ever for the reasons 
that both our national economy is so completely dependent on 
having a good circulation system, whether it is a local 
circulation system or whether it is an interstate or 
interconnected system or whether it is ports to other means and 
modes of transportation.
    The Federal role has always been there, and the great 
challenge we have today is we have an uncertain partner. And we 
cannot plan and design with the long-term projects that we have 
based on that uncertainty.
    Mr. Shuster. Director Cox?
    Mr. Cox. Mr. Chairman, obviously AASHTO does not support 
devolution. We are 1 of 38 organizations that signed a letter 
sent to Members of Congress yesterday opposing devolution 
presentations. We support a strong Federal highway and transit 
program. As I stated in my testimony, a strong Federal program 
is needed to support interstate commerce, and I gave examples 
from I-80 across southern Wyoming.
    According to some data that was released by the American 
Road and Transportation Builders Association yesterday, in 
Wyoming we would have to raise our fuel tax 30-plus cents per 
gallon in order to make up the difference. Looking at the chart 
that ARTBA released yesterday, there is not one State in the 
country that could go through what I went through, what we went 
through in Wyoming to raise the fuel tax on the stateside 10 
cents, and break even. So the impact in terms of cost at the 
State level would be considerable.
    Mr. Shuster. Thank you. And Governor, you mentioned a 
staggering statistic. One-third of your highway funding is 
wrapped up in litigation. Is it the funding part of it? Is it 
environmental? Is it all the above?
    Governor McCrory. Most of it is a type of environmental, 
where we have projects that have been held up due to 
woodpeckers, to snails, to other types of species under the 
Endangered Species Act. And you can delay a project 5 years, 20 
years, 50 years, and it gets more and more expensive the longer 
we delay. We put a lot of money into lawyers and lawsuits.
    And not only that, but it ties up the money, and that is 
one area where we would like some more flexibility at the State 
level. If we do have a project tied up, let us have the 
flexibility to transfer that money to another high-priority 
project. I want to respect that relationship. If you allow us 
to transfer that money, allow us to transfer that money to a 
higher priority project which would have also a positive impact 
on not only the statewide system but the system connecting the 
Nation.
    Mr. Shuster. Thank you.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I would observe that, 
Governor, your State has the third highest gas tax in the 
country. Utah just changed to a percent basis for fuel taxes, 
and I think it has an inflation adjuster in there. And Mr. Cox, 
you testified that Wyoming, which is a somewhat conservative 
State, shall we say, just raised their gas tax 10 cents.
    And I guess what I would ask all three of you to reflect on 
quickly yet again, just to emphasize it--because some Members 
may have been distracted; I had a phone call--that even despite 
this incredible amount of self-help, third highest gas tax in 
the country, moving to a percent basis, up a dime, you still 
need the Federal program.
    Just emphasize that just one more time because we still 
have a few devolutionists around here. I know the chairman 
asked this, but I just want to put a nail in the coffin, stake 
through the heart, and garlic around the neck.
    [Laughter]
    Governor McCrory. Well, again, yes. The answer is, we need 
that money. And listen, I understand the theory of devolution. 
But when it comes to infrastructure as opposed to other types 
of Federal Government, infrastructure does not recognize city, 
county, or State boundaries.
    Congestion does not recognize that. Neither does the 
environment recognize that. And trade does not recognize that. 
When you are stuck in traffic, they do not know what city or 
county they are in or State in many instances. So we must have 
an interconnectivity plan.
    And we have worked--in fact, I just supported an effort in 
my own legislature to stabilize the current gas funding source. 
There was an effort to reduce the gas tax in our State based 
upon other factors going on right now. And I supported an 
effort to stabilize the current funding source that we have 
now.
    I also need to let you know we all need to recognize, 
because of fuel efficiencies and other factors, we are going to 
have to look for other types of revenue sources to help pay for 
the needed infrastructure. And that is the process that I am 
going through now, looking at other alternatives in addition to 
the current user application of the gas tax.
    Mr. DeFazio. I would be happy to talk to you about that. 
Spent a lot of time on it. But dealing with the existing 
revenue source, you could index it to fleet fuel economy and 
construction cost inflation, which I have recommended at the 
Federal level. And that would help deal with that in the short 
term. Long term we will probably go to vehicle miles traveled, 
but there is privacy and other issues.
    Mayor?
    Mr. Becker. Yes. Thank you for the question. So just last 
week our State legislature--we concluded our session last 
Thursday night--adopted a change in our gas tax to a 12-percent 
sales tax on gas and increased the gas tax effectively by 5 
cents. In addition to that, they provided local authority to 
increase our sales tax so that we could provide better for our 
roads and other transportation needs, transit and other needs.
    We are a very conservative State, as everybody knows, I am 
sure. But it was recognized that when we start putting more and 
more of our General Fund money and other money into roads--and 
the average is more than 50 percent in Salt Lake; it is 70 
percent now, we pay for roads out of General Fund money, for 
example--we are really hurting every other function that we 
have to perform at the local level.
    So we provided basically an indexing to deal with 
inflation. We provided for an increase. And we provided for 
local transportation needs, and for the changing needs around 
transit and active transportation. It was remarkable. We have 
done the same thing in Salt Lake City. A very conservative 
place. We increased our property taxes 2 years ago to provide 
mostly for our transportation infrastructure that was falling 
apart.
    So the partnership has always been there, and it makes it 
extremely difficult for us to do our jobs without the Federal 
partnership.
    Mr. DeFazio. Mr. Cox?
    Mr. Cox. Ranking Member DeFazio, you mentioned in your 
opening statement and you showed this chart with the various 
levels of dependency on Federal funds among the States. I think 
you said the average was about 51 percent. So I will start with 
my most embarrassing fact first. Wyoming was about 68 percent 
dependent at one time. That is much better because of the 10-
cent fuel tax hike than it was at one time. But I would tell 
you that that universal balance there where the States are 
dependent speaks for itself.
    But I think, more importantly, as the Governor started this 
morning, he mentioned the connectivity issue between the 
States. The strong Federal role and partnership has been proven 
for 100 years. And so when done right, it has stood the test of 
time. We think that it needs to be continued.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. It must be lonely out there, Mayor, 
with all those Republicans that surround you.
    Mr. Becker. We are friends.
    [Laughter]
    Mr. Shuster. It sounds like you are working together. That 
is great.
    With that, Chairman Mica.
    Mr. Mica. Thank you. And I think there is a lot of support 
for passage of a strong transportation highway bill. You all 
testified that you support a strong Federal program. Is that 
right? Governor? Governor? Governor? We have got three nods, 
for the record.
    And this Federal activity in transportation consists of two 
things. It consists of funding and basically regulation. Is 
that pretty much correct, too, Governors? Yes. So I do not 
think anyone testified that you want more Federal regulation. 
In fact, I heard you do not want that. So basically, what you 
are here for is asking for more Federal funding.
    In MAP-21, we tried to do everything we could to devolve 
much of the funding and the responsibility to the States. I 
would have liked to have gone even further. When you say 
devolution, some folks mean turn the whole thing over to the 
States. Others mean that we can be a strong partner and help 
finance.
    Let's go through regulations first. We streamlined the 
permitting process. Mr. Gibbs and all of these guys here, Mr. 
Ribble, all these guys did an incredible job, I think, in 
streamlining that. We also allowed devolution of some of the 
permitting. And I understand California, Texas--I know Florida 
is working on it, and I think Utah has an application in to 
take over some of the permitting. What about the others? Can 
you comment? North Carolina?
    Governor McCrory. Sure. What we have liked so far is some 
of the categorical extensions and giving us some flexibilities. 
And that is what I am really looking for.
    Mr. Mica. Well, we have given you that. But you also have 
the ability to do some of the permitting, and that would speed 
things up devolving.
    Governor McCrory. Absolutely. We can speak----
    Mr. Mica. So you will be having your secretary send me a 
letter, a note, on when that is going to start. Right? Because 
I am one of your constituents. I have a place. I have been 
paying taxes in Watauga County for 35 years.
    Governor McCrory. I am glad to hear that. Thank you very 
much. I appreciate that. I am going there next week.
    [The letter that Congressman Mica requested of Governor 
McCrory follows:]

[GRAPHIC] [TIFF OMITTED] 

    Mr. Mica. All right. And, let's see, Utah is currently 
applying. Is that correct?
    Mr. Becker. I believe so. I have been hearing a little bit 
about it.
    Mr. Mica. Well, you have got to know more, because 2 years 
ago we intended to devolve the regulatory process more to the 
States. And you can do it. So I will expect that letter, too.
    Governor Cox [sic]?
    Mr. Cox. Thank you for the promotion, Representative Mica. 
Wyoming has not made any moves similar to Texas and California 
at this point. Let me make a statement, though, quickly on 
behalf of AASHTO.
    To the extent that MAP-21 extended some State authority 
that could be applied for and granted at the State level, let 
me speak just specifically for a second to projects within the 
right-of-way. We think that there is an opportunity here in the 
next bill to extend those privileges under NEPA to include 
transportation conformity determinations.
    One area where there has been progress is inside the right-
of-way. When a State has a short construction season, that is 
us, and that is virtually any Northern State, and has to wait 
for a clearance or permit from some non-DOT agency. That can be 
the difference in whether or not the project can be completed.
    Mr. Mica. We put provisions in there. That needs to be 
strengthened. Great recommendation.
    The other thing--and even though you are a former chairman 
you only get so much time--the other thing I would like to see 
from you and from your secretaries of transportation for the 
record is what we have put in law--and we had good intentions 
to speed things up in permitting.
    But I would like to see where the problems are, where the 
Feds are not operating as we intended. Most of our 
recommendations came from our States. All of our 
recommendations came from our States. We could not get them all 
in. And then what is lacking.
    One of the things, real quick, to end up on: The lawsuits, 
have they increased in the last 2\1/2\ or 3 years? And I wonder 
if any of that has been impacted by what we did in the law. How 
does it compare with before MAP, Governor McCrory? Or if you do 
not have it----
    Governor McCrory. I do not. I will get that information 
back to you. By the way, I do know----
    Mr. Mica. I would like to know if we had an impact in 
increasing the litigation through some of the things that we 
did.
    Governor McCrory. A lot of the litigation I inherited 
during my first 2 years has been around a long, long time. And 
I also agree with Mr. Cox about the right-of-way, and that is a 
big issue for us. And the other issue is wetlands, another 
major area of delay.
    Mr. Mica. Once we take out ``navigable,'' you will be fine. 
Thank you.
    Mr. Shuster. Thank you, Mr. Mica.
    Ms. Norton is recognized.
    Ms. Norton. Thank you, Mr. Chairman. I very much appreciate 
this second hearing.
    Mr. Cox, perhaps also Mayor Becker, not until I became 
ranking member of the Subcommittee on Highways and Transit had 
I focused on a big part of our transportation bill that I bet 
most of us do not even know much about, and that has to do with 
roads through Federal lands.
    I think of this issue because of Wyoming and Utah. In my 
own district there is Arlington Memorial Bridge, for example, 
the gateway to Arlington Cemetery and to Virginia and to all 
the Southern States. But that is not included in your State 
allocation, and it should not be because these are assets on 
Federal lands.
    As a result, because we have not paid as much attention to 
these roads through places like Yellowstone and Grand Teton and 
the Arlington Memorial Bridge that I just named, there is this 
huge, growing backlog, which is not the responsibility of the 
States.
    I wonder, Mr. Cox, for example, if you--by the way, I 
assume that these Federal lands are responsible for some 
tourism and therefore for revenue to the States. I wonder if 
you would say something about the transportation needs on 
Federal lands in places like Wyoming. Do you agree that they 
are a critical component, albeit not from your State 
allocation, of the needs that must be attended to by a bill?
    Mr. Cox. Mr. Chairman, Representative Norton, from both a 
Wyoming perspective and a national perspective, we support both 
the Federal Lands Transportation Program, and I will mention 
something here that adds to that, and that is the Tribal 
Transportation Program.
    You mentioned the national parks, Yellowstone and Grand 
Teton National Park, and we have also got many miles of 
National Forest highway as well. Ensuring access to these parks 
and transportation within those facilities is clearly a Federal 
responsibility, but I will tell you that it is the second 
largest revenue generator in Wyoming, the second largest 
industry.
    It is also important to support our Nation's tribal 
communities. I just got a figure yesterday that there are just 
short of 600 different recognized tribes of Native Americans 
within the United States. And those tribal lands include a 
large portion of Wyoming, equal to the largest county in 
Wyoming. And if you will allow me to focus for one second here, 
I want to tell you a success story that reinforces our support 
of Federal lands in the program.
    The collaboration between WYDOT, my organization, the 
Arapaho and Shoshone Tribes, which are the residents of the 
Wind River Reservation, in the center of Federal lands led to a 
successful overhaul and construction of a road called 17 Mile 
Road, which on a VMT basis was the deadliest piece of highway 
in Wyoming.
    And we just finished that last year and turned it over to 
the tribes. So without that collaboration from those three 
angles and without the participation of the Federal lands 
program, it could not have been possible to get done what we 
did.
    Ms. Norton. Mr. Becker?
    Mr. Becker. Thank you, Delegate Norton, and nice to be back 
in my home town. Appreciate your representation.
    As a former National Park Service employee, obviously these 
issues are near and dear to my heart, and public lands really 
represent two-thirds of the land mass in the State of Utah. The 
current backlog just for national parks, maintenance backlog, 
is $6 billion, and that has been growing. It is not part of the 
State and local funding mechanism, and so we see this 
increasing deterioration affecting obviously the incredible 
tourism destination the national parks represent in Utah and 
across the country.
    The recommendation that we have heard is that that funding 
allocation from the transportation bill be increased from $240 
million to at least $365 million, with progressive increases to 
be able to keep up or at least start addressing this backlog in 
maintenance. And any of you who have traveled in national parks 
realize not only their beauty but that their infrastructure is 
deteriorating. Thank you.
    Ms. Norton. Thank you, Mr. Becker.
    Governor McCrory, I wonder, if you were mayor of a big city 
like DC, we have seen an enormous increase in preference for 
transit, bike, and pedestrian trails. There has been some 
controversy--well, why should highway money go to these 
transportation options?
    Have you seen or do you agree that allowing people to 
pursue these options draws significant amounts of traffic off 
of our highways and therefore are viable options that should be 
funded in the transportation bill?
    Governor McCrory. I think what they do is provide options, 
and options are always good. The more choice you have in 
transportation, the more beneficial it is to the quality of 
life, environment, and choices that the consumer has.
    And what we have in our statewide formula for our cities 
and towns, both rural and urban, are a variety of options that 
are put into the formula that are looking at how much does it 
relieve congestion? How much does it help safety? And also how 
much does it help deal with the economic opportunities of that 
area, whether it be large cities or small towns alike?
    So we include all those options in our formula, and we 
think that is an important part. But in North Carolina, I have 
tried to take the politics out of all those options and do it 
based upon a formula. And so we get the biggest bang for our 
buck on where we spend the money. How we spend the money in a 
city like a Raleigh or Charlotte might be different than how we 
spend the money in a Tryon or a North Wilkesboro.
    Ms. Norton. Thank you.
    Mr. Shuster. I thank the Governor.
    Mr. Crawford is recognized. Five minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Gentlemen, I 
appreciate you being here today.
    Governor McCrory, I want to visit with you a little bit. 
Your State took on a pretty big change in your transportation 
project selection process. What prompted you to do that? Talk 
about that a little bit.
    Governor McCrory. Well, we were making a lot of decisions 
on our roadbuilding based upon politics. And as you went down, 
we did not have the interconnectivity that we should have had. 
You would go down from the East to the West, North to the 
South, and we would have highways going from two lanes to four 
lanes back to two lanes back to eight lanes. And it made no 
rhyme or reason on why the roads were wide in one area and very 
narrow in others. And we also saw that it was not an efficient 
use of limited tax dollars.
    So in a bipartisan agreement, Republicans and Democrats 
both agreed to change that formula. In fact, my good friend, 
Mr. Rouzer, helped support that when he was in the State 
legislature. We now base our formula on how we spend money on 
congestion, on economic opportunity, and on safety, the three 
major criteria of how we decide to spend the money.
    And instead of just looking at project by project, we are 
now looking at, in our bond referendum, which I hope to bring 
to the voters of North Carolina, a connectivity plan--for 
example, from Asheville down to the coast of Wilmington near 
your district. And that is, we look for the choke points in 
that 6-hour drive and we unleash the choke points, which does 
not mean every county between those choke points is going to 
have a project.
    But if we unleash the two or three major choke points, it 
benefits every county between Asheville and Wilmington, North 
Carolina. And then we have good commerce among counties, just 
like I ask for the same interconnectivity on I-95 or I-40 or I-
85 or I-77 or I-26, which are all intersecting in our State, 
which are important for the commerce not only within our State 
but between States.
    I see the congressman from South Carolina. We need 
connectivity between Myrtle Beach and Wilmington. It is a very 
important corridor.
    Mr. Rice. Do not forget 73.
    Governor McCrory. So that connectivity crossing political 
jurisdiction is extremely important, and that is the plan that 
we have implemented in North Carolina. And in just the short 
term--I think I have statistics in front of me that have been 
given by my staff--we have now, I think, added about 300 more 
projects based upon the new formula. And they are going to be 
much more interconnected projects, which have long-term 
sustainability for all of North Carolina, and I think the 
Nation also in the Southeast.
    Mr. Crawford. Safe to say that it has been pretty well 
received by the general public on that transparency and the 
streamlining the process, taking the politics out?
    Governor McCrory. Absolutely. And I think where I keep 
bringing up Eisenhower, for each of you, too, is I think as we 
look for more funding, Mr. Chairman, we need to also show the 
vision of where we plan to have this interconnectivity from a 
national perspective, from a regional perspective, from a State 
perspective, and even, yes, to a local perspective.
    If we show that, where we are planning to spend that money, 
and show that we do have a plan and a vision for the next 
generation and the generation after that, I think people are 
willing to pay for it. But if we do not have their trust and 
spend the money as we have always spent it, I do not think we 
are going to get the trust of the people to increase the amount 
of funding for transportation.
    And my first step is to gain the trust of the public, to 
show them this is how we are making the decisions and this is 
the vision for the next 25 to 50 years. I think we have to do 
that at all levels of Government. I did it as a mayor with 
regards to mass transit; I showed them our 25-year plan. But 
without showing the plan, I do not think we would have ever 
received the support of the voters.
    Mr. Crawford. Thank you, Governor. Appreciate it, 
gentlemen. I yield back.
    Mr. Shuster. Thank the gentleman.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    Well, first let me say I enjoyed very much your comments. I 
agree with just about everything you said, and coming from a 
State like New Jersey, where fees are very prominent on any 
roads. So I was just wondering, you are looking at alternative 
funding. And I know that--this is a bad word, toll roads--and I 
was just wondering where that fits in.
    And Governor, my best friend is moving to your State, and 
he just told me that you built a road where you charge 40 cents 
in North Carolina, and people are boycotting it because you are 
charging a toll on it. I was just wondering if that is 
accurate. But I cannot imagine that the States you come from, 
tolls are an alternative for funding transportation projects.
    Governor McCrory. Well, one rule we have in our State is if 
we ever do a toll, there also has to be an alternative for 
people to have another option to use. So while we are 
experimenting in tolls right now, we do have a road outside of 
Raleigh which is a toll road, and then we are experimenting 
also. We are in the trial period----
    Mr. Sires. It is about 40 cents you charge on that toll 
road?
    Governor McCrory. I do not have the price with me. I will 
be glad to get that to you. But the other thing is we are 
experimenting with HOT lanes, so not toll the entire road but 
toll a new lane that would be added so we can speed up the 
construction of the widening of major corridors at this point 
in time.
    We are doing one between downtown Charlotte and Cornelius, 
North Carolina, where we are going to do a HOT lane and toll 
that lane based upon the congestion. And the toll will be based 
upon how much congestion there is. And I just think we have to 
think out of the box on where the limited dollars are, and we 
are all going to have to see what works best, from looking at 
user fees to looking at potential tolls of HOT lanes, and then 
also looking at stabilizing and at least maintaining our 
current gas tax.
    Mr. Sires. Mr. Becker?
    Mr. Becker. Yes. Thank you. In Utah, I was in the 
legislature for 11 years before I became mayor, and I have been 
mayor for--I am in my eighth year now. The toll roads have been 
proposed, attempted, tried over and over again. We do have some 
very limited tolling.
    The issue that really has prevented us, I think, from 
taking on tolling more is the first tolling location always 
says, why are you picking on us? And we have not come up with a 
statewide system. So while tolling represents a great way to 
have another user fee, in our State I think we have chosen to 
look at other means of financing roads and leaving the roads 
open.
    We certainly do provide, as is true, it sounds like, in 
North Carolina, for someone being able to buy into greater use 
of the HOV lanes by paying a fee. And it is a way for us to 
both use those lanes more and capture some more revenues. But 
it has been really tough, so in our State we have gone in a 
different direction.
    Mr. Sires. Mr. Cox?
    Mr. Cox. Representative Sires, in Wyoming there are no toll 
roads. Several years ago----
    Mr. Sires. Good for you.
    Mr. Cox [continuing]. At the tail end of SAFETEA-LU, there 
was an indepth study. So it is not as if to say there has not 
been a conversation about it. But there was an indepth study 
ordered by the legislature into the viability of a possible 
tolling scenario on I-80 should that be enabled at the Federal 
level. I would tell you that the viability was there. It was a 
conversation before its time, and the people spoke very loudly 
that it was not a popular idea with the populace.
    Mr. Sires. Well, thank you. I can tell you that in New 
Jersey, basically I think the tolls are out of control. I mean, 
when you charge $15 to go into New York City and then going 
down the turnpike, it is just--I am not a proponent of toll 
roads, let me put it this way. It is just too easy to raise the 
tolls on people. To me, it is double taxation. And they just 
keep raising it unless you need it.
    Governor McCrory. Mr. Chairman, with all due respect, I 
also want to say I think the other item with tolls is, does the 
consumer have a choice of another route? And the other is, it 
is very difficult to retrofit existing roads. And that would be 
a major negative issue in my State, for example with the I-95 
corridor; to try to retrofit an existing road into a toll would 
be, I think--it would not happen.
    Mr. Sires. The problem with New Jersey is that the 
alternate road also has tolls on it. Thank you. Thank you, Mr. 
Chairman.
    Mr. Shuster. Thank you, Mr. Sires.
    Mr. Gibbs, and Mr. Gibbs will be the last question before I 
know the Governor has a hard stop. So you might want to direct 
the last question, or your question, Mr. Gibbs, to the 
Governor.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you for the 
panelists.
    Governor, I want to expand a little bit more on 
Representative Crawford's questioning, talking about the 
intermodal, and you were talking about the seven military bases 
and all that, and with rail, because I think intermodal is 
really important, and then also when you go across State lines.
    Is that what we need to look at more, who facilitates this? 
Because you are working with the Department of Defense and then 
of course the private railroad companies if you go across State 
lines. You are taking the leadership as the Governor, but what 
should be the Federal role to help facilitate that between 
State lines and the Department of Defense and what your status 
is on the intermodal?
    Governor McCrory. Yes. I think where I could use help from 
the Federal Government is showing that plan of connecting 
economic regions. For example, I have an Elizabeth City area in 
North Carolina, northeastern North Carolina, which is closer to 
here than it is to where I was mayor of Charlotte. It is 
actually pretty close to Washington, DC.
    We think that their unemployment rate has not been reduced 
as much as other parts of the State have. We have gone from the 
fifth highest unemployment rate; now we are not even in the top 
30, I believe. So we have done very well. But there are pockets 
where we need still more connectivity.
    And their best connectivity in Elizabeth City, and this is 
coming from the Governor of North Carolina, is to connect to 
Hampton Roads, Virginia. Connecting to that economic region 
would be the best benefit to them. So where I would like to see 
the Federal Government is to see, where do we need that 
connectivity that crosses political jurisdictions, especially 
statewide jurisdictions?
    Another one is the connectivity to South Carolina and North 
Carolina, from Wilmington to Myrtle Beach, which is a major 
travel and tourism destination. I want Myrtle Beach to do well. 
I want Wilmington and the rest of our coast to do well. But to 
have that interconnectivity is very important for the entire 
economic region.
    And economic regions, again, do not recognize these 
political boundaries when we are recruiting new industrial 
customers or travel and tourism. And I think that is where we 
could use your help. And that is why I think the Federal 
Government has to play a role, so we do not have these logjams 
along the coast or connecting our major regions.
    Mr. Gibbs. Thank you. Also, Governor, I think Mr. Cox--
especially Mr. Cox--you talked in your testimony about being 
careful on the regulatory side. And Governor, you mentioned 
wetlands.
    There is a new regulation that the administration has 
proposed and they are probably trying to implement here in a 
month or so. It is called Large United States Borders. Have any 
of you looked at that and what the impact might be to your 
States on your road projects?
    Mr. Cox. Mr. Chairman, Wyoming is looking at that. We are 
very concerned about it. And there is probably not a lot I can 
say because the State has drawn a legal stance on the matter. 
But Wyoming is concerned with it.
    I think that from the standpoint of AASHTO and the State 
DOTs in general, there is deep concern. We have got situations 
prior to this proposed ruling that range from great 
relationships which lead to relatively quick approvals all the 
way to if you turn a shovel in the right-of-way in the ditch 
that you have to have permission. And so that is something that 
AASHTO is watching very closely.
    Mr. Gibbs. Well, my opinion, we need to keep those 
regulations as close to the local States as we can and not have 
a one-size-fits-all policy coming out of DC that centralizes 
it, more bureaucracy and going to add cost to your States.
    Governor McCrory. In fact, my DENR secretary will be 
testifying here in Washington next week in front of a Senate 
committee. But we have major issues with it, especially with 
the agriculture.
    Mr. Gibbs. Yes. Mr. Becker, in your testimony you mentioned 
GROW AMERICA. This is going to be more a comment on my part, 
but anyway, I guess you can answer. The President in his budget 
proposal how to fund for the surface highway bill is 14 percent 
new tax on American companies that have profits overseas on 
their crude profits, even though those profits might have been 
plowed back into their capital operations overseas, and then 
tax those profits 19 percent going forward.
    I see a couple of problems. First of all, I do not know how 
you enforce it. I think this is a pipe dream. Second, I think 
it encourages businesses in the United States to move their 
headquarters, and then of course more importantly, I think it 
would encourage more inversions, where foreign companies are 
buying American companies.
    And so I do not believe that proposal will work. I notice 
you had in your testimony about the GROW AMERICA. So you can 
comment if you want. Go ahead.
    Mr. Becker. I will just comment briefly. Obviously, there 
are different opinions and views on the funding sources for 
transportation. And from a local government point of view and I 
think even from a State point of view, we recognize there are 
varying sources.
    That is one that has been identified by the administration 
as sustainable. It is obviously up to this committee and to the 
Congress to decide a sustainable funding----
    Mr. Gibbs. Well, I think everything should be on the table, 
but I do not think that proposal will work. But my time is 
expired. I yield back. Thank you.
    Mr. Becker. Appreciate it. Thank you.
    Mr. Shuster. Thank you. And with that, Governor, I know you 
have got a hard stop. I have to depart, myself, so we can leave 
together. And I am going to leave the gavel in the hand of the 
vice chair of the full committee, Mr. Duncan from Tennessee.
    And before I leave, I will recognize Ms. Esty for 5 
minutes. Governor, thank you so much for being here.
    Governor McCrory. Thank you all very much for your hard 
work. Appreciate it.
    Ms. Esty. Thank you, Chairman Shuster and Ranking Member 
DeFazio, for holding today's important hearing on the 
reauthorization of the Federal surface transportation program. 
And I would very much like to thank our distinguished witnesses 
for their testimony and taking time from your very busy 
schedules to be here today.
    Governor McCrory, I will follow up with you. But I was just 
meeting yesterday with our Governor Malloy, who has a 30-year 
plan. And I want to commend you for your long-range planning. 
And thank you for emphasizing the importance to this committee 
of Congress doing its job to provide long-term, sustainable 
funding for the Governors, the mayors, and all of our planners 
in our local communities to make good decisions for the 
American people. So we will follow up with specific questions 
for you.
    Governor McCrory. Thank you.
    Ms. Esty. Fifty-year plan--wow, we are getting really 
ambitious. Thank you. So I would like to note, as the Governor 
is departing, the importance of these long-term plans. And 
Connecticut has just announced a 30-year plan for us to really 
make that kind of long-term investment.
    Mayor Becker, since you are staying with us, thank you. I 
want to thank you for sharing your perspective on improving 
transportation systems at the municipal level and for sharing 
your experience in Salt Lake City. I want to thank you also for 
highlighting in the National League of Cities the cities, 
towns, and common ground proposal. I have heard a number of 
similar concerns in my State about the difficulty of 
implementing some of the federally funded local priority 
projects into the Federal regulatory framework.
    What do you think we could do here at the Federal level to 
empower municipalities to develop and implement projects at the 
local level that make our transportation infrastructure more 
efficient and effective?
    Mr. Becker. Thank you so much for the question. I will just 
reinforce your planning point. In Utah, I believe a key for us 
in getting everyone on board for funding transportation long 
term has been a unified transportation plan that has been 
adopted at the State level by all the local jurisdictions, by 
all the MPOs, by the transit agencies, and really has given us 
a very clear path forward, and what the funding needs are 
associated with that.
    At the local level, I think we are seeing some real 
improvements, I think, with the TAP funds, with the 
transportation alternative funds there. We would like to see 
those funds clearly dedicated, with 100 percent of those for 
TAP-eligible activities.
    I think today we are seeing--and I know this varies from 
place to place--those funds getting diverted more and more, 
often for other needs. And as I described in the testimony and 
you have heard from others, the real increasing and fast-
increasing demand at the community level, which represents 80 
percent of the people, 90 percent of the population in this 
country, is around transit and active transportation first and 
foremost.
    So having dedicated funds there, as well as the CMAQ funds 
and having those clearly programmed to go to the metropolitan 
planning organizations rather than to States, will give us much 
greater flexibility to address our needs locally.
    So those are two areas certainly I can highlight for you 
that we believe both represents more the needs at the local 
level, which is where people are living more and more, and 
where our economy is driven.
    Ms. Esty. Thank you very much. We have seen that as well in 
my State, both the point you highlighted of young people moving 
into cities not wanting to use cars, as well as senior 
populations. And I think that we do agree with you. We need to 
readjust our planning.
    And for both of you, if you could add your perspective. One 
of the growing areas of concern we have seen in Connecticut is 
the impact of corrosion on our infrastructure. I have started a 
corrosion caucus to deal with that. If you could talk about 
what we need to do at the national level to help support the 
maintenance, long-term maintenance.
    We have put a lot of money into these systems, but if we do 
not maintain them or prep them properly, then they degrade much 
faster than they ought to. And it would be helpful to hear your 
perspective on those issues.
    Mr. Cox. Mr. Chairman, first of all, we can get back to the 
committee for the record with some deeper information than 
this. However, I would tell you I think from a multistate 
perspective and certainly from the perspective of the State 
where I live, that concern exists.
    I do not know at this point that I have a recommendation 
for what to do from the Federal level to address that. I 
believe the fact that it has to have our attention speaks for 
itself. But I do not have a recommendation at this point. We 
will get back to you.
    Mr. Becker. I know in Utah and in Salt Lake, it has been a 
major focus of our attention to deal with bridges and with 
corrosion. We believe that it would be really almost necessary 
at this point to include locally owned bridges in the Federal 
funding formulas, and that is something that apparently, 
whether it is oversight or otherwise, is not reflected in the 
current legislation.
    Ms. Esty. Thank you very much. Thank you, Mr. Chairman.
    Mr. Duncan [presiding]. Thank you.
    Next on our side is Mr. Rice.
    Mr. Rice. Thank you, gentlemen, for being here today and 
sharing your insights. My focus here in Congress is on American 
competitiveness and jobs, and I know that Salt Lake City and 
Wyoming are doing their best to be competitive in this global 
environment.
    I got a call this last summer from the secretary of 
transportation in my home State of South Carolina who said, I 
understand the Highway Trust Fund is about to run out of money, 
and what are we supposed to do. Are we supposed to not enter 
contracts or to put contingency clauses in our contracts?
    I want you all to, if you could, comment on how that 
uncertainty affects our national competitiveness and the 
competitiveness in your jurisdictions.
    Mr. Becker. Well, it makes a huge difference for us because 
if we cannot plan and design and build, which are long-term 
endeavors, our transportation system to meet today's needs----
    Mr. Rice. You mean you cannot stop and start highway 
projects on a dime?
    Mr. Becker. No. And it is a multiyear endeavor to go from 
planning to design to construction, even under the best of 
conditions, where the regulatory system does not lengthen that 
process. And today, we do not live in an economy, even in a 
city, in a metropolitan area the size of the Salt Lake area, 
which is about 1.5 million--we increasingly look towards our 
export businesses as a major part of our economy.
    We are continually looking at how we get goods in that are 
coming from overseas into our arena, into our area. And so for 
us, it really is an international matter. I think we have seen, 
with the metropolitan sort of revolution that is occurring all 
across the country, that our metropolitan areas simply----
    Mr. Rice. I hate to cut you off, but I only have limited 
time. Do you think that this uncertainty generated by the 
Federal Government's lack of willingness to proceed on the 
Highway Trust Fund or these major items makes you, Salt Lake 
City, more or less competitive in the world?
    Mr. Becker. It clearly makes us less competitive. I will be 
very brief.
    Mr. Rice. Mr. Cox?
    Mr. Cox. Mr. Chairman, to answer the first question, 
clearly it makes us less competitive. The problem with the 
uncertainty is not only--we could go on and on about the 
planning process and the long-term issues with highway design 
and construction.
    But if you look at the construction community, in Wyoming 
we have an instate capacity. We rely on surrounding States' 
contractors. They cannot plan their own workforces. That is 
jobs. They cannot plan their own physical plant and equipment 
unless there is some sort of certainty in terms of funding in 
general, including----
    Mr. Rice. And do you have that certainty now?
    Mr. Cox. No.
    Mr. Rice. Now, let me ask you this. In Wyoming, when you 
are talking about construction jobs, it is one thing. And you 
are probably talking about thousands of jobs. Right?
    Mr. Cox. Yes, sir.
    Mr. Rice. And then when you talk about the collateral 
benefit of the infrastructure, you are talking about multiples 
of that. Right? In terms of jobs.
    Mr. Cox. Mr. Chairman, absolutely. In my State----
    Mr. Rice. So here is where I am getting. Then I want you to 
answer. Would you expect that, nationwide--project Wyoming on 
the entire country--are we talking thousands of jobs or are we 
talking about millions of jobs?
    Mr. Cox. Mr. Chairman, whether you are talking about the 
corpus of jobs involved in construction or the ripple effect, 
you are talking about millions of jobs.
    Mr. Rice. Millions of American jobs on the line?
    Mr. Cox. I believe so.
    Mr. Rice. I believe so, too. You know, the Highway Trust 
Fund is something that we certainly need to deal with. And I am 
very proud to serve on the Transportation and Infrastructure 
Committee, and I am confident that we are going to find a long-
term solution because reactionary short-term planning will get 
us nowhere.
    But if you look at other problems facing our country, 
whether it is the Medicare Trust Fund or the Social Security 
Trust Fund or even immigration or these other major issues that 
face us, all these things create huge uncertainty in our 
economy, and in my opinion make us less competitive and are 
costing us millions of jobs.
    And the shocking thing to me and the frustrating thing to 
me is, everybody in this room knows we have these problems. I 
do not think anybody would dispute that. But we are amazingly 
unable or incapable of finding long-term solutions.
    So I appreciate your comments, I thank you for being here, 
and I for one will be looking hard for a long-term solution to 
the Highway Trust Fund.
    Mr. Duncan. Thank you very much.
    Next, Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman. And I want to thank 
both of you and the Governor for being here today and 
testifying in front of our committee. I am a new member of the 
committee. I am very honored to be here.
    Last week I was at home in my district and met with every 
single transportation stakeholder in my district, and their 
message to me is the same message, I think, that you are giving 
the committee, is that we need a long-term, sustainable finance 
surface transportation bill here in Congress.
    And we all know that the vexing challenge here is, what is 
the mechanism? How are we going to provide that revenue source 
to pay for the so important investments that we need to make? 
So I just wanted to ask all of you, in terms of the 
organizations that you represent, has there been a discussion 
or any specific recommendations from the National League of 
Cities or from the American Association of State Highway and 
Transportation Officials about a specific position with raising 
the gas tax or a one-time or ongoing repatriation method, if 
you have made any recommendations or had any of those 
discussions?
    Mr. Becker. We have had extensive discussions in an ongoing 
way in the National League of Cities about funding 
transportation. And there are many options, as this committee 
knows better than anyone, in terms of how to fund them.
    At the local level, we rely on the gas tax as a primary 
source of funding. And we recognize there are times when we 
have to bite the bullet if we are going to provide for a 
transportation infrastructure in our communities. And as tough 
as it is, those are decisions that we make every day or every 
year, certainly, when it comes to our budgets and looking at 
what our needs are and justifying the needs and living up to a 
long-term commitment we have to our communities.
    So for us, whether it is the GROW AMERICA Act proposal, 
whether it is a gas tax, or whether it is some congestion 
pricing formula, whatever kinds of approaches that you would 
find acceptable, the important thing from our vantage point is 
to make a decision. The American people, we believe--certainly 
our communities reflect this--expect us to make those hard 
decisions and accept it without consequence, I can tell you, in 
terms of our elected and political lives.
    Ms. Brownley. Mr. Cox?
    Mr. Cox. Mr. Chairman, first of all it would be hard to 
overstate my agreement, our agreement, with you that a long-
term, sustainable source of funding for transportation is 
absolutely needed. AASHTO has put together a matrix that 
illustrates a large menu of options, every one known to us, and 
most of those are known to many, but that have been 
exhaustively discussed. I am not sure that there are any out 
there that--there may be some creative alternatives out there 
that have yet to make it to the list.
    The elephant in the room, for sure, is how to pay for this. 
I think, from the perspective of our States, whatever immediate 
short-term action needs to be done, whatever needs to be done 
in terms of a multiyear bill probably is going to involve a 
little bit of a different consideration than is, what does the 
future look like?
    Because I think all of us recognize that the Highway Trust 
Fund and the funding mechanism for it is one that is becoming 
inadequate. And so what does that look like in the future? That 
will be a combination, most assuredly, of options.
    Ms. Brownley. But it would be fair to say that any and all 
options would be acceptable within your organizations? There 
would not be any of those options that would not be acceptable?
    Mr. Becker. Correct.
    Ms. Brownley. Thank you. And Mr. Mayor, I wanted to ask 
you--I was excited about your testimony as it relates to better 
pedestrian traffic and the use of bicycles. And actually, in my 
district, which is Ventura County in California, we have twice 
as many people who bike or walk to work than use transit.
    So my question is just a broad one. How do you think that 
Congress can best support local communities that want to invest 
more in bicycle and pedestrian infrastructure?
    Mr. Becker. Thank you for that. This transformation is 
really remarkable that we see around communities all across the 
country for active transportation. And it is where there is 
clearly, I can tell you in our region, the most energy of 
people excited and willing to take it on.
    My sense is that if you dedicate the TAP funds and make 
that clearly for those purposes so they do not get diverted, 
the CMAQ funds, and to the extent you can identify funds that 
should be used for active transportation, it goes so much 
further than we see for funds for roads because usually the 
infrastructure improvements are so much less expensive.
    And we just saw, in legislation passed by our State last 
week, that for the first time they are actually identifying 
specifically active transportation funding at the State level 
as well.
    Ms. Brownley. And do you have data to show that that kind 
of investment is really reducing congestion in your area?
    Mr. Becker. We are tracking that very closely. There is 
national information I would be happy to try to get to you on 
that. And I can tell you locally we are tracking it very 
closely, and there is no question that even where we take out a 
lane of traffic on some of our streets and slowing the traffic 
down, we are actually providing for more people getting through 
on those streets.
    Ms. Brownley. Mr. Cox, do you have any comments on bicycle 
and pedestrian infrastructure?
    Mr. Cox. Mr. Chairman, as a lifelong cyclist and 
competitive cyclist as well, I am absolutely in favor of the 
use of alternative modes of transportation. Having said that, 
let me just comment on this to come back to the big picture in 
terms of what is facing us today.
    In Wyoming, and I think in many States, I am trying to 
solve a $15 problem with 10 bucks. And if at the end of the day 
under the MAP-21 construct--I think Ranking Member DeFazio 
mentioned that it is $10 billion before just the end of this 
year.
    And so as we consider these emerging needs, the things that 
are very popular and the things that will reduce congestion in 
those areas where that is sorely needed, we also need to keep 
our eye on the ball, I believe, though, and that is that what 
are we going to do in the shorter term?
    Because if we are not careful, we could end up dividing 
what already exists, and do not know how to fund tomorrow, too 
much. And in my State, one of the illustrations that we use 
with our legislators at the State level is--I think it has to 
be dumbed down so I can understand it. OK? But we use what we 
call the FRAM oil filter illustration: Pay me now or pay me 
later.
    And if you spend a dollar today on the infrastructure, you 
will save 4 to 8 to 12 bucks later on. That is the problem that 
is really overpowering us right now, but in agreement with the 
fact that all of these other modes and possibilities need to be 
taken into consideration as time goes on.
    Mr. Duncan. I am sorry, Director Cox, the time has long ago 
expired.
    Mr. Davis is next on our side.
    Mr. Davis. Well, thank you very much, Mr. Chairman. I 
appreciate the time, and I appreciate the witnesses being here 
today.
    I have got one first question to Mr. Becker. Thank you for 
your service, Mayor. I believe more local control of our 
transportation dollars should be a priority. And my district is 
mostly rural, with some smaller urban areas like Bloomington-
Normal, Champaign, Illinois, Springfield, Illinois--home to 
Abraham Lincoln--and Decatur, Illinois.
    I want to ask you a quick question. What changes would you 
recommend this committee make to help our communities that may 
not be like yours, with less than 200,000, get their fair share 
of Federal transportation dollars?
    Mr. Becker. Thank you for that question. And I mentioned 
before the TAP funds and the CMAQ funds and having those 
clearly dedicated so that local communities can address these 
changing needs. But I realize, as Mr. Cox indicated, that in 
many places there are varying needs.
    So having more local control and discretion over funds is 
huge. We are recommending that a greater share of the surface 
transportation funds--that is, 75 percent--go to the 
metropolitan planning organization, where you have the State 
departments of transportation, the transit agencies, and all 
the local governments sitting at the table to decide how best 
to use that money within a region.
    It is currently a 50/50 split, and we believe that if we 
devolve that, using your terminology earlier, to the local 
level, we are going to see a much smarter use and practical use 
of those funds.
    Mr. Davis. Thank you very much. Obviously, we have had a 
lot of discussion on funding sources. We love to be able to 
talk about the different issues, and many of my colleagues said 
no source should be off the table. And I am just glad we are 
having this debate. Some that I talk to in my district do not 
even think we are talking about trying to have a robust, fully 
funded transportation bill.
    But I want to ask you your opinion because I hear a lot of 
rhetoric in regards to other infrastructure projects. And I 
believe, when it comes to the transportation bill, we need to 
put together a list or a pie of priorities, somewhat of a 
diversified portfolio, rather than just relying upon one 
source. And I am glad we are talking about these different 
sources.
    But in the debate regarding an infrastructure project, the 
Keystone pipeline, many of my colleagues, many who serve on the 
other side of the Capitol, are talking about how it is only 
going to create 35 permanent jobs. Well, I think that hinders 
our ability to talk about what infrastructure and construction 
means to our economy and to local communities and States.
    It does not help us to talk about the need to fund a robust 
infrastructure policy when we know permanent jobs along 
highways and interstates are not going to be created at all in 
the State of Illinois, but it is going to help grow other jobs, 
as my colleague Mr. Rice talked about, the indirect jobs that 
are created by economic growth.
    This is a frustration for me because I think as we move 
forward on this debate, when it comes to funding the highway 
and transit bill, that same rhetoric will be used to talk about 
not investing in infrastructure at all. So I would urge you to 
remind some of your colleagues who may be utilizing that 
rhetoric because of their own political thoughts regarding the 
Keystone pipeline, reassure them that that debate does not help 
us when we are talking about construction projects. I would 
like to get both of your thoughts on that.
    Mr. Becker. Appreciate the comment. I will tell you from 
the local perspective, and we have talked about this probably 
as much as you have in your committee here, we are here to 
support you in making a decision that will give us a 
sustainable, long-term funding and transportation system that 
we can all rely on.
    So when this Congress is able to rally itself around a 
source, and as has been noted, there are many different sources 
for funding, we will be here to support you. And we appreciate 
that transportation is the circulation system for our country, 
whether it is local, at the State level, or nationally. And we 
are going to be here to support you in making those decisions.
    Mr. Davis. Thank you.
    Mr. Cox? I have got about 25 seconds for you.
    Mr. Cox. Representative Davis, just quickly, I want to 
focus in on one comment that you made about the collateral 
benefits of transportation investment. AASHTO as an 
organization can furnish you with information. There has been a 
robust amount of discussion on that issue.
    And I will tell you that at the same time, one of the 
things that we are conceding among my colleagues across the 
country is that the Department of Transportation needs to get 
better at showing what the economic benefit is that the need 
drives. In other words, not only do we need to get out from 
behind the eight ball, but what is the benefit in the long 
term? So I am in agreement with you, sir.
    Mr. Davis. Well, thank you very much. And I appreciate what 
both of you do to move this debate along. I think you can sense 
my frustration because I came here to work with my colleagues 
to hopefully come up with a long-term solution. And there is no 
committee that epitomizes the ability to work together in a 
bipartisan basis than this committee, and all you have to do is 
look at what we did with the water infrastructure bill during 
the last Congress. With your help, we will do it again this 
year. Thanks for your time.
    Mr. Duncan. Thank you very much.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Cox, the first question I have is for you from a 
perspective of AASHTO. I was talking with our Secretary Lynn 
Peterson last week from Washington State a little bit about 
this issue of practical design. And despite the efforts of 
AASHTO, only a handful of States have actually adopted 
practical design consistently, something that in Washington 
State we are trying to do, and trying to perhaps get that to be 
used more.
    Can you talk a little bit about why States regularly are 
not using practical design to develop and deliver projects, and 
what some of the hurdles may be?
    Mr. Cox. Mr. Chairman and Representative Duncan, can we get 
back to you with information on that? We will answer that 
question, but I did not come prepared to answer that.
    Mr. Larsen. Oh, OK. Great. Yes, I would appreciate that. It 
is something we want to be looking at.
    As well, we have seen decreased traffic fatalities over the 
past few years, but pedestrian and bike deaths have not gone 
down at the same rate. So last year a few of us asked the GAO 
to look at this trend, and one suggestion we have heard is that 
we are over-engineering or over-building roads so that the 
posted speed limit may not match the size of the road. As a 
result, that contributes to a more unsafe road for bikers and 
pedestrians.
    Has AASHTO looked at this issue, the relationship between 
design standards and road safety for bikers and pedestrians?
    Mr. Cox. Mr. Chairman, Representative, yes. The simple 
answer is yes. AASHTO is looking at that. Let me just expand 
for one second here.
    I would tell you that in Wyoming, and I think this is a 
microcosm of the discussions that are going on in other 
places--and I am talking about the highway system, nonurban, at 
this point. OK?
    Mr. Larsen. Sure.
    Mr. Cox. Robust discussion. The legislature there is 
talking about how does highway design and driver and cyclist 
behavior interact in terms of the fatality count. We quintupled 
this last year our average over the last 10 years in terms of 
cyclist deaths.
    But when we analyze that--and by the way, those numbers are 
not nearly as big as that might sound, putting it that way--but 
when we analyzed it, what we found was behavior, driver 
behavior and cyclist behavior, was really 100 percent the 
issue, not the design of the pavement.
    So there is a broader discussion that needs to be held. And 
as a career law enforcement officer before coming into my 
current position, that is one of the things that we have that 
ability to emphasize, that that is part of the discussion at 
the table as we analyze that.
    Mr. Larsen. Yes. Thanks.
    Mayor, I have several questions for you. It has to do with 
a bill that I have introduced called TIGER CUBS. You know the 
TIGER program is for large projects. We introduced something 
that would be for smaller projects because we found that if you 
want nickels and dimes, you can get it from the Federal highway 
program. If you want big chunks of money, you can get it. But 
if you are a city of mid-size and you want something in 
between, there is really no one pot of money for that city to 
complete a project that is big for that mid-sized city but 
small compared to what TIGER is directed at.
    I was wondering if NLC has taken a look either at that, my 
bill, or just the general idea of looking at some of these mid-
sized cities and how to help them access Federal dollars for 
those one-time big projects that are big for those mid-sized 
cities.
    Mr. Becker. I am not sure, and I will get back to you on 
whether or not NLC has a specific position as it relates to a 
TIGER CUBS program. But I will tell you this because I believe 
this is very consistent with our approach.
    The TIGER program has been enormously successful, not just 
because it is leveraging Federal dollars so much more and that 
it is tailored to local needs and combines multiagency 
perspectives and needs to reflect what community needs are as 
it surrounds transportation projects. And having a simpler 
program, which I assume is consistent with what you are 
proposing for smaller communities, can only increase 
dramatically how Federal funds get used to meet those local 
needs and the State needs.
    We are finding, and we have been a beneficiary of a TIGER 
grant, and we took basically a relatively small Federal grant 
and we leveraged that with two cities, with our transit agency, 
and then with private funding to be able to build out a 
project. And that kind of creativity that comes through a 
program like that we think forces us to think better and to 
broaden our reach in terms of who we go to both for funding and 
conceiving and developing a project at the local level.
    So we would encourage that kind of approach as a way to 
optimize, really, the Federal money and really tailor it to 
local needs.
    Mr. Larsen. Thank you. And just one final note. If you 
all--and I will pass it on to the NGA as well--if you all can 
be more specific and help us be more specific about the funding 
issue. We are always talking about robust funding, but trying 
to get to the answer here is a little like talking about the 
weather. Right? Everyone talks about it and no one does 
anything about it. We need to get a lot of help to be specific 
about the funding need in the future.
    Mr. Duncan. Good point.
    Mr. Zeldin is next on our side.
    Mr. Zeldin. Thank you, Mr. Chairman. And appreciate you 
doing this hearing on an important issue. I represent New York 
1. This is the East End of Long Island, the First Congressional 
District of New York. A lot of people think of Transportation 
and Infrastructure Committee thinking of roads and bridges. My 
district is almost completely surrounded by water, so the Army 
Corps jurisdiction, the FAA jurisdiction, it is great to be on 
this committee.
    I just wanted to put a little bit of perspective on this 
type of district. A lot of people ask me where the district is 
and I say, it is the Hamptons. Oh, yes, we know where your 
district is. We have the vineyards of the North Fork, the five 
East End towns. But almost 500,000 people who live in my 
district live in a small town just west of the Hamptons called 
Brookhaven, and it has just under 500,000 residents.
    Now, this town has only 21 miles of interstate. It is 
called I-495, the Long Island Expressway. The town highway 
department is responsible for over 2100 miles of roadway, and 
the need for road repairs go way beyond this one stretch of 
Federal highway.
    We had a pretty rough winter up in the Northeast. A lot of 
people have read about it coming from warmer climates elsewhere 
in the country. My colleague, Carlos Curbelo, sent a Tweet 
where he had a picture of him down in Miami asking Elise 
Stefanik, Ryan Costello, and I how the weather was up in our 
area in the middle of one of those blizzards. I appreciate 
that.
    [Laughter]
    Mr. Zeldin. So I wanted to ask a question. From your 
perspective, what can we in Congress do to grant more 
flexibility to States and municipalities with a massive need to 
prepare critical roads that are not under Federal jurisdiction?
    Mr. Becker. Well, I will go back to some things that I 
talked about before. There are Federal programs under the 
Transportation Reauthorization Act, MAP-21, where there is a 
lot of discretionary money that goes to the States. And while 
we certainly appreciate the State need--and I can tell you in 
Utah we have an incredible partnership between our State 
department of transportation, our transit agency, and our local 
governments--having that discretionary money go to the State 
level impedes our ability to address our local needs very well.
    If money can get delegated in TAP or in CMAQ funds or in 
the surface transportation funds to the MPO level, then we can 
much better address the allocation of those monies in a way, I 
think, that achieves practical design, that achieves Complete 
Streets policies, whatever the local needs are.
    And so shifting that authorization a bit helps us meet what 
is a quickly transforming desire from our publics, and a lot of 
it, and always will be, around roads, at least for the 
foreseeable future. But much of it is increasingly in other 
areas. And it varies. In a place like Utah, our air quality 
issues drive our decisions more than they would in your 
district.
    Mr. Zeldin. Director Cox, I want to give you an opportunity 
to answer that as well. I guess maybe taking the question one 
step further is, what more can we do to be able to represent a 
district like mine? I mean, my colleague, David Rouzer, when 
people think of a highway bill, you think of a district like 
his where you have these two huge interstates crossing paths.
    But as I mentioned, this town that I represent of 486,000 
people with 2100 miles of roadway, 21 miles of it being 
Federal, are there particular Federal policies that for your 
life as a mayor or as a State transportation official made it 
more difficult? What more can I do to be representing a 
district like mine?
    Mr. Cox. Mr. Chairman, wow, a couple things. One thing is 
to keep in mind the big picture. The Federal program is 
designed to ensure that Federal funding goes to projects that 
are in the Federal interest. So if you keep that in mind kind 
of as the backdrop, it may inform the discussion as you go 
along.
    The other point that I would make here is that with all of 
us conceding that the elephant in the room is the funding and 
what the mechanism is and what the size should be and all of 
that--I do not think there is a colleague of mine across the 
country who would not say quickly that they could put to use 
more Federal funding if it were available.
    In a fiscally constrained environment, the biggest question 
is, are we going to be able to take care of the $10 billion 
between now and the end of the year? Are we going to get a 
multiyear bill at the current levels or plus inflation passed? 
Those are the big questions begging.
    But I guess my caution would be here, and in somewhat 
agreement with my friend the mayor here, but at the same time 
throwing a caution here that unless the program is expanded 
significantly in terms of the funding, then any change in 
priority toward your district, toward the local cities and 
towns of Federal funding will take away from what is the 
national interest and the Federal interest in some cases, at 
least.
    The other thing is--I sense that you wanted to ask another 
question, so I will just let you----
    Mr. Zeldin. No, no. If you could wrap up. I am just about 
to run out of time, so if you could just finish your answer.
    Mr. Cox. OK. Well, even Secretary Foxx, a man that I have 
tremendous respect for, mentioned in a meeting with us just 
several weeks ago here in DC that the advocacy that he is 
undertaking for more Federal funding for municipalities and for 
cities is predicated upon a growth of the overall program. In 
other words, hold harmless those programs that are resident 
today in the Highway Trust Fund. So that might be something, 
just as a baseline, to keep in mind.
    Mr. Zeldin. I appreciate this. And what I am about to say 
is by no means targeting our guests here. But coming from a 
district where we do not have all of these Federal highways 
running all through our district, we are paying the gas tax. We 
are paying into the Highway Trust Fund just like every other 
district everywhere else in the country.
    So when I am back at home I am getting asked the question, 
why are we sending so much more to Washington than we get back 
in return? It seems like we have the system set up where we are 
subsidizing the rest of the country. I appreciate your point 
very much.
    Mr. Duncan. I am sorry. The time of the gentleman----
    Mr. Zeldin. All right. Thank you, Chairman.
    Mr. Duncan [continuing]. Is long expired.
    Mr. Carson?
    Mr. Carson. Thank you, Chairman.
    Mr. Cox--well, Mayor, my com director used to work for 
KCPW. She wants to meet you. But I will let you guys talk 
later. And she is from your State.
    Mr. Cox, many of us have worked hard, as you know, to 
reauthorize the DBE program at DOT, most recently, in MAP-21. 
We are starting now to work on the new highway reauthorization, 
but it has been deeply disappointing to discover weak 
oversight, quite frankly, with regards to this program 
described in the Department of Transportation inspector 
general's report.
    Now, Federal agencies, sir, as you well know, say they rely 
on State and local agencies for data with regards to 
contracting and subcontracting. But I want to make sure that 
small and disadvantaged businesses will be able to participate. 
Could you tell us, sir, with your expertise, about things that 
are being done to improve the performance of the DBE program?
    Mr. Cox. Mr. Chairman, Representative Carson, all I can do 
is comment on Wyoming. And we will have to get back to you with 
a specific answer with regards to the bigger picture in AASHTO.
    In Wyoming, we have a little bit of a hybrid program. But I 
would tell you that the percentages of DBE on contracts has 
exceeded the goals agreed upon between the State of Wyoming and 
Federal Highways every year since we arrived at this negotiated 
approach. And I can provide you details on that. But I do not 
know that that is representative of the whole. So we will get 
back to you with an answer.
    Mr. Carson. This is for both of you. Many of us were 
pleased about the announcement that the Department of 
Transportation has started steps to enable vehicle-to-vehicle 
communication for light vehicles in particular.
    Now, I think we all know that this technology will improve 
the safety of most of hopefully our constituents and U.S. 
citizens. What can you tell us about this new technology and 
how it is being tested in your States? And are there early 
reports or even trends that you would like to share with us 
about how we can make our roads safer?
    Mr. Becker. Thank you for that question. And I will have to 
get back to you on the specifics in terms of at the State level 
what is being done.
    Mr. Carson. Sure.
    Mr. Becker. I have had an opportunity to go visit where 
some of these vehicles are being manufactured and used, and it 
is truly remarkable what is happening with this technology. And 
I know that we always try to work hard to stay up to or in 
front of those technology changes.
    I can tell you that the safety issues that we see we think 
will only improve with this technology. And we are going to 
need to think also about how we combine that with other users 
of the road in a Complete Streets concept with both pedestrians 
and cyclists, who are increasingly taking advantage of our 
rights-of-way.
    Mr. Carson. Thank you, Mayor.
    Mr. Cox. Representative Carson, I feel a little bit 
inadequate for that question. One of my predecessors, Kirk 
Steudle, who is the director in Michigan, has immersed himself 
in this and could go on as long as you wanted to talk about it. 
But we will get back to you with an AASHTO answer on this.
    The one thing that I have been impressed with, and which is 
emerging now, is in terms of the safety features on the newer 
cars. There is no question that they are increasing the safety 
margin even in Wyoming, which has not pioneered anything at 
this point in terms of connected vehicles or roadside 
appurtenances that would speak to the cars.
    But I would tell you that in the West, at least one State--
I think he would appreciate it if I did not name him right 
now--has a pilot project cooking for connected freight, a 
connected freight pilot project across their State in the near 
future.
    Mr. Carson. Thank you. Thank you, gentlemen.
    Mr. Chairman, I yield back my time.
    Mr. Duncan. Well, thank you, Mr. Carson.
    Mayor Becker, I have to tell you that from the time I was 9 
until I was 17, I grew up at City Hall. My dad for a little 
over 3 years was city law director and then mayor for about 6 
years. And I learned that everybody and his brother wanted to 
be a fireman or a policeman, and then the day after they went 
on the force, they wanted a promotion and a raise. And I 
wonder, is that still true?
    Mr. Becker. Some things do not change.
    [Laughter]
    Mr. Duncan. Let me ask two quick questions. Number one, I 
chaired a special panel last year on public-private 
partnerships, and on all types of transportation and 
infrastructure projects, a lot of places seem to be going more 
toward public-private partnerships. We found out there is great 
interest in that. We had a hearing on Wall Street, and some of 
the financial giants came to us and said that they were getting 
a lot of calls.
    Do you see that as a wave of the future, or are you 
skeptical about public-private partnerships in regard to 
transportation and infrastructure projects?
    Mr. Becker. Thank you, Mr. Chairman. I see that in terms 
of, in our area, not just as a wave of the future but the 
present. We do not do anything, I can tell you, in our 
community and in our region around infrastructure where we do 
not just engage our Chamber of Commerce, where we do not engage 
adjacent businesses and property owners in trying to make 
decisions about how we fund those projects.
    And increasingly, I think without question, we are going to 
need to look to those means to reflect the growing costs 
associated with infrastructure improvements, the clear benefits 
that come to both businesses and local areas and regionally, 
and I think it is being well received and supported in the 
private sector because they realize how important 
transportation projects are.
    I know that for me, with every project we go forward with, 
my first stop is usually with the Chamber of Commerce. And 
without exception, they have been supportive in finding funding 
mechanisms that take advantage of the private sector in our 
funding efforts.
    Mr. Duncan. Well, thank you very much. We have found that 
there are some efficiencies on a lot of these projects that are 
possible if they are done right.
    Director Cox, I am a strong supporter of building roads and 
fixing roads up, and I really like roadbuilders. But in some 
States, roadbuilding has been a very highly profitable 
industry. Do you think, number one, is there enough competition 
in the roadbuilding industry in most States? And secondly, are 
you doing anything to try to hold down the costs of these 
roadbuilding projects so we can get the work done but save a 
little money, too?
    Mr. Cox. Mr. Chairman, let me give you two angles on that. 
First, in the broad context, under the current funding levels--
and I cannot speak for every State on the stateside--but under 
the current funding levels on the Federal side, there is plenty 
of capacity for most projects.
    In terms of stewardship inside the State, and I will give 
you a Wyoming answer on that, our Transportation Commission has 
statutory authority to exercise discretion. And what that goes 
to, we have a contractor prequalification process that is 
rigorous, and contractors are not allowed to bid unless they 
meet requirements, and they are not allowed to continue to bid 
unless they perform on those contracts. Those are very 
important components within our State, and that has been a very 
successful program for us.
    Mr. Duncan. All right. Thank you very much.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And to the 
gentlemen, sorry I was not here to hear your presentations, but 
I had another commitment also.
    My community, the area that I represent, is greatly 
impacted by freight movement. And while it creates jobs, there 
is an impact on the communities that sometimes becomes adverse. 
I want to ask if you feel we should include a freight movement 
program in the next transportation bill? And should we 
prioritize projects that mitigate the negative impacts that 
freight has in our communities?
    Mr. Cox. Mr. Chairman and Representative Napolitano, AASHTO 
supports maintaining the federally funded State-administered 
nature of the program that served the Nation well for the past 
100 years, and retaining that Federal/State relationship 
ensures that Federal funding goes to projects that are in the 
national interest. I am sorry, I am----
    Mrs. Napolitano. My concern has been that while my area, 
the Alameda Corridor, brings in over 45 to 55 percent of the 
goods to the eastern seaboard, it has an impact because the 
whole corridor goes through my district. And it has 
environmental impacts, safety impacts. There are other things.
    And so those cities that have that kind of impact, do you 
not believe that we should address it in the next 
transportation bill to allow the communities to have some 
assistance in doing whether it is quad gates, whether it is 
grade separations, whether it is amelioration of the negative 
impact?
    Mr. Cox. Mr. Chairman and Representative, I apologize for 
beginning to answer the wrong question here. Is your question 
with regard to a separate freight program or just addressing 
the impacts in those----
    Mrs. Napolitano. Either/or. Whatever works to help our 
communities be able to deal with this negative impact.
    Mr. Cox. I believe there is probably an appropriate role 
for attempting to address the impact of freight on any portion 
of the system.
    Mrs. Napolitano. Have you had any cities address this 
impact, this negative impact?
    Mr. Becker. I thank you for that question. Let me put this 
in very concrete terms in Salt Lake City. We are a major 
corridor for railroad freight and for freight moving through. 
Those freight corridors have a huge impact on really 
segregating portions in neighborhoods in our community.
    And when we try to have crossings of those railroads in 
particular, it is very difficult. And it has actually prevented 
us from moving forward, for example, with a streetcar line 
going into one neighborhood because there is some rule in place 
that prevents streetcars from crossing railroad tracks. So it 
keeps us from serving a neighborhood the way we should be able 
to.
    So those kinds of issues for us to be able to address would 
be enormously helpful at the community level.
    Mrs. Napolitano. Have you proposed anything in that area? 
Simply because I know it is not just California. It has got to 
be other States that have the same feeling of not being able to 
move forward, like you say, on your streetcar. How do we 
address it so that we are all aware that it is not a one size 
fits all, but rather that we all have different areas where we 
could get help?
    Mr. Becker. Well, in our case we have had great difficulty 
working with the railroads themselves. So providing some 
authority or some direction for us to be able to address the 
safety needs, but not just provide the complete discretion with 
the private railroad company saying we cannot cross their 
railroad in a way that we know can be done safely.
    Mrs. Napolitano. Great. Well, that is a big issue. And of 
course, I have always tasked the railroad to pony up more money 
for the grade separations because they only deal with about 3 
percent of it even though there might be a little bit more in 
some areas.
    The other question I have is for Mayor Becker. We just 
passed a temporary Department of Transportation advantage of 
hiring locally. How do you see that helping your cities and 
your communities?
    Mr. Becker. Well, it is critical for us, obviously, to be 
able to use a very well qualified and committed workforce to be 
able to provide employment in our areas. And I know even in 
this State legislative session that just passed that we 
included a preference for local hiring in future projects.
    So we build that into our project at a community level. To 
the extent that is done at the Federal level, we think that 
provides benefits to the economy, and it is probably much more 
efficient.
    Mrs. Napolitano. Will it help, then, some of the 
communities that have a very high unemployment rate?
    Mr. Becker. Certainly. Fortunately, I can say that Salt 
Lake City does not--we are at about 3 percent or less 
unemployment right now. But being able to provide the kind of 
direction that keeps money in local hands always provides not 
only local jobs but a greater multiplier.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you.
    We will turn the time over to Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman. I recall when we 
opened this hearing the chairman and the ranking member both 
talking about devolution and put you both on the spot talking 
about devolution.
    It strikes me, and I have only had a voting card for 4 
years, but when you have a flat rate per gallon gas tax and the 
number of gallons purchased is going down and it is not indexed 
for inflation and it has stayed in place for two decades, we 
kind of have devolution going on today. If you are going to 
take care of your roads and bridges and we are not footing the 
bill, somebody is footing the bill.
    My question is, I found Mr. Cox's testimony about 75 
percent of the traffic going through Wyoming being in transit 
from one place to another very compelling, and I feel that 
burden of responsibility as a Federal legislator to focus on 
those opportunities.
    But I worry that accepting those dollars for noncritical 
freight path projects is reducing the bang for the buck that I 
am getting. I will give you one example, and Mayor, you may 
have had this same experience.
    We just did a $200 million bond initiative. I only 
represent two counties. One of them just did a $200 million 
bond initiative because they wanted the roads widened and the 
State did not have the money. The Feds were not providing the 
money. Two hundred million dollars, we are going to do it 
ourselves. It is going to be 1 year from the date of the vote 
to groundbreaking. One year in the State of Georgia. We rank 
number one and number two, respectively, in bringing in 
projects on time and under budget in Georgia.
    So when I delegate those dollars elsewhere and folks start 
doing things like creating local hiring initiatives, which I 
understand why that is important though it might not be the 
best economic outcome; when folks start putting in their own 
perhaps value-added but also cost-added efforts into a project, 
I begin to question whether or not I am giving the American 
taxpayer the best bang for their buck.
    How do we get more local governments with skin in that game 
on the one hand? And number two, what can we do with those 
Federal dollars? I will stipulate that they are going to be 
provided, but to get you from receipt of those dollars to 
groundbreaking in 1 year.
    The fact that my friends in Florida seem to not take 
Federal dollars for new construction and only take Federal 
dollars for maintenance seems to suggest to me we have run far 
afield if what our collective goal here is building things and 
making America more efficient in terms of transit. Mayor?
    Mr. Becker. Thank you, Mr. Chairman and Representative 
Woodall. We put huge skin in the game, and that is true whether 
we look at the Federal funding or whether we look at State 
funding. At the local level, the vast majority of the money we 
spend is local.
    We do rely on partners. In a place like Salt Lake City, we 
are the crossroads of the West, as we say. We are also the 
center of a region and we serve a population that goes far 
beyond Salt Lake City, whether that is interstate commerce or 
whether that is regional traffic.
    And so for us, we have been biting that bullet for quite 
some time. But there is still such an important Federal role 
here because so much of what is happening is interstate 
commerce and is national and international in terms of its 
nature.
    In terms of how I think, if I heard the second part of your 
question best, I can tell you, as someone who has spent a 
career working as a NEPA planner and lawyer, that what has 
happened with what I view as an absolutely great environmental 
law, the National Environmental Policy Act, is truly 
unfortunate.
    As court cases have been lost in infrastructure projects 
and transportation and water, the agencies just add on another 
step instead of looking at how they work to reflect what the 
statute calls for, which is disclosure of environmental 
impacts, considering alternatives, involving the public in 
making a decision.
    We have gone from processes that should be a year, a year 
and a half, to processes that are 5 to 7 years in many big 
transportation projects. We need to get back to addressing what 
is critically important, which is that we consider 
environmental impacts and we base our decisions with 
consideration of those environmental impacts. And we have gone 
afield from that. MAP-21 helped. We can go a lot further.
    Mr. Woodall. It will not come as a surprise to you that the 
National League of Cities has more credibility on that NEPA 
discussion down at 1600 Pennsylvania Avenue than does a 
Republican congressman from the great State of Georgia. And I 
would welcome your leadership on that. It drives me crazy in 
this place that we can agree on what that fundamental principle 
is, but getting from here to that goal that we all share takes 
us in that circuitous route.
    It was also not lost on me that we have a Delta 
brotherhood, Salt Lake City and Atlanta, that we share. If 
there is one thing we want to make sure, I do not care about 
your streetcar very much, but I want to make sure your airport 
remains the pride of the region. And be happy to partner with 
you going forward.
    Mr. Becker. Thank you. We are in a $2 billion rebuild of 
our airport, so you will be----
    Mr. Woodall. Mr. Chairman, I yield back.
    Mr. Duncan. The gentleman's time expired. Thank you.
    We will turn the time over to Congresswoman Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you to our witnesses today because I think you have been really 
patient. But you can also tell how important this issue is to 
so many of us on this committee and in the Congress.
    We do know that neglected problems have a way eventually of 
falling down on us. And I think in my district we had that 
experience just a few weeks ago in early February when a block 
of concrete fell down from an overpass around our Capital 
Beltway onto a woman who was just running her errands. 
Fortunately, she was not injured and did not injure others on 
the road, but it could have been a disaster.
    I have said before on this committee, I shudder to think 
that every time I am driving, I have to actually look up in 
addition to paying attention to what is going on around me on 
the roads. And so we are at a really important time when we 
have to figure out both how we pay for it and the fact that we 
are investing in our infrastructure.
    The incident that happened there is just illustrative of 
many incidents that have happened over the course of time, even 
since I've been on this committee. We were dealing then with 
the aftermath and the report back from the bridge collapsing in 
Minnesota. And I would note that on that project, the process 
was expedited, Federal funding was provided, local funding 
provided, and the project was completed in short order. So we 
can actually do this when it comes to our infrastructure.
    The Woodrow Wilson Bridge right out in my district 
connecting Maryland and Virginia and the District of Columbia, 
all three of the jurisdictions put in their money. The Feds put 
in Federal money. And the project was completed on budget and 
on time.
    And so I think we have a number of examples where we can go 
through a process that respects the environmental 
considerations, that respects the local jurisdictions, allows 
them to put up the resources that they need, and gets the job 
done.
    And I have a question for you all. One, for AASHTO, Mr. 
Cox, I read through your testimony and I appreciate that you 
make a note to all of us that Federal funding is a supplement--
the State funding is a supplement to the Federal program. That 
is your words, not as a substitute for Federal programs.
    Because I think sometimes we forget that, and as the 
Highway Trust Fund is preparing to expire and we have to 
reauthorize that and extend it for a period of time so that 
long-term projects can get done and not just the short-term 
projects, I am reminded that in our State we took some 
extraordinary measures a couple of years ago.
    And so we actually are going to be able to wait the tide 
out and will not run out of money, actually, until next year 
that would supplement our Highway Trust Fund. But that is not 
the case for all of our States, and it means that we are not 
going to be able to spend money on some projects that we would 
ordinarily do if we had an assurance of a Federal partner.
    Also, in your testimony, Mr. Cox, you indicated that there 
has to be an important balance struck between transit and 
traditional highway funding. And I appreciate your striking 
that because as Mayor Becker knows, Governor McCrory if he were 
here, he would say the same thing. You have got jurisdictions 
that serve as regional hubs. We need the combination of the 
transit and the roads for our agriculture and other kinds of 
commerce.
    And so I wonder if the two of you could say what kinds of 
revenue sources your organization would support or not. Is it 
vehicle miles traveled? Is it an increase in the gas tax? Is it 
indexing the gas tax to inflation? Is it an infrastructure 
bank? Be really specific because we have to be specific when it 
comes to getting our work done on this committee.
    Mr. Cox. Mr. Chairman and Representative Edwards, I 
appreciate the question. But I will tell you that as president 
of AASHTO, I represent 52 different sets of political 
realities. And so it would be very accurate to say that while 
we have put together a matrix of options to be considered, ones 
that not only would work today but may work in part tomorrow, 
we can illustrate for you that it will be most probably a mix 
of options that will fund the transportation system of 
tomorrow.
    That said, I do not believe that any of my colleagues 
sitting here would say this is the way to do it. Now, what I 
said earlier I think maybe applies here. And the question is 
what mechanisms work right now? Obviously, the historical 
mechanism is one that has to be a centerpoint of that for the 
moment.
    But what mechanisms will work in the future as they mature? 
And I will point out one that you have heard about, I am sure. 
The State of Oregon has developed a VMT model that is now being 
evaluated in Oregon and on a regional basis. Will it mature 
into the funding mechanisms tomorrow? I guess time will tell.
    But it occurs to me that as time goes on, not to be too 
redundant here, but it will be a menu of options rather than 
just one. I do not think that what you are going to see is any 
resistance on the part of AASHTO in supporting what the 
Congress does in terms of funding a transportation bill. That 
is not really our focus. Our focus is, figure out how to fund 
it and get it done.
    And I do not mean to be insensitive when I answer that 
question. Governor Freudenthal, when he first appointed me, 
gave me a marching order, and he said, John, we know you need 
money for highways. He said, I want you to go in and testify to 
the magnitude of the need, and you leave how that is paid for 
to the legislature.
    Now, that was instate, in Wyoming. And at the risk of 
sounding flippant--I do not want to put in flippant terms at 
all--I recognize that there is a huge challenge before you all. 
We respect the hard work that you are going to have to do. 
There are a number of options, and we will be happy to provide 
you with what we have got.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Duncan. The gentlelady's time is expired.
    We turn the time over to Mr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. I really 
appreciate it.
    A major issue that is facing my district, 36 in the State 
of Texas, is the integration of Highway U.S. 59 into Interstate 
69. And while the benefits of this project are very numerous, 
there is also a very strong concern by some of my constituents 
that these new Federal truck weight standards will disrupt the 
decades-long practices of loggers and other industry.
    Simply put, the route of this highway will stay the same, 
but new weight standards could dramatically impact the way 
companies throughout Texas and America do business while 
traversing the highway. Notably, log trucks will have to reduce 
their weight by 4 tons, a substantial loss with mills and 
logging contractors and truckers that already have very thin 
profit margins. Many of these loggers have already left the 
industry in recent years.
    My first question: Throughout your time as a mayor or as 
the State department of transportation director, have you 
confronted a similar challenge as regards upgrading an existing 
State or U.S. highway to a Federal interstate? Are there not a 
number of States where weights are grandfathered in, where a 
State highway or a U.S. highway has become an interstate? Can 
you speak to that, please, sir?
    Mr. Cox. Mr. Chairman, Representative Babin, Wyoming does 
not have that kind of transition in progress, nor have we 
contemplated one that would go from a State route, a lower 
designation route to an interstate. But I would tell you that 
there is a dramatic difference between what is allowed by the 
Federal Government on the interstate, the 80,000-pound max size 
and weight limitations, and what is allowed on the two-lane 
highways in Wyoming.
    Perhaps more compelling is that--and I am kind of speaking 
from a western perspective here, but having been in meetings 
with Western States, we are all over the map. It is very 
difficult, without changing a highway designation like you are 
referring to in Texas----
    Dr. Babin. Right.
    Mr. Cox [continuing]. There is dramatic differences as soon 
as you cross the border into the neighboring State in a number 
of instances. And so there is a move on to allow States 
flexibility to get together and develop a coalition and try to 
solve those problems regionally, rather than--rather than just 
having State-to-State standards. That said, AASHTO has not 
taken a position on size and weight, but I would tell you that 
that's a pretty much front-burner topic in many States.
    Dr. Babin. Thank you.
    Mr. Mayor?
    Mr. Becker. Thank you. That's not an experience, as you can 
probably imagine, on a community level, that we--we certainly 
do experience, oftentimes, how do we handle the increased 
weights and traffics on our--and traffic on our roads, and we 
are continually having to upgrade our roads to try to deal with 
weights, and the increased weights, I do know, pose an 
incredible challenge for us in our community, when we see these 
heavier vehicles going on roads that just weren't built to 
that--to that standard.
    Dr. Babin. Yes sir, and I appreciate that. I'm sorry that 
the Governor had to leave, because I am sure he has had that 
experience in North Carolina.
    But let me follow up. Hearing what I have said, would you 
recommend that policymakers in Congress and the Department of 
Transportation err on the side of grandfathering in 
longstanding traditions, such as truck weights, when a highway 
is being upgraded to an interstate? Especially to preserve the 
integrity of the biggest interest group in industry, in this 
part of my district, in what we call DPS Texas. Because I know 
there are some other States that have done this in the past. 
Because that is a substantial drop in a payload, a cargo of 
logs, to go from 88,000 pounds to be specific in the State of 
Texas, down to 80,000 pounds. That's 4 tons. Would you 
recommend erring on the side of the industry?
    Mr. Cox. Mr. Chairman, I'm sorry, could you repeat just the 
last part of your question?
    Dr. Babin. Yeah. I'm asking you if you think it would be 
wise for policymakers in Congress, and with the Department of 
Transportation, to side on the grandfathering of longstanding 
traditions, and make a grandfather clause, if you would, for 
these truckers and these people in the timber industry in my 
part of the State of Texas, so that they don't have to lose 4 
tons of cargo in an industry that is already operating on very 
thin profit margins.
    Mr. Cox. Mr. Chairman, Representative Babin, this response 
isn't direct to your question, but it does apply to it, and 
it's a little bit from the hip. But I would tell you that it 
seems to me that just simply allowing State flexibility in that 
specific matter, rather than grandfathering something, or 
grandfathering certain people, or a certain route, just allow 
State flexibility might be something to contemplate.
    Dr. Babin. Thank you.
    Mr. Hardy [presiding]. The gentleman's time has expired. 
I'd like to turn the time over to----
    Dr. Babin. Thank you.
    Mr. Hardy [continuing]. Gentlelady Frankel.
    Ms. Frankel. Thank you, Mr. Chair. Thank you gentlemen for 
being here. And without being repetitious, I just want to say I 
join my colleagues in urging that--that we all dig deep to find 
a sustainable funding source for our Highway Trust Fund.
    I want to move on, to say that I was a mayor for 8 years, 
so I am very sympathetic to the local funding issues. And 
without just repeating some of the testimony, I would ask you, 
Mayor Becker: Is there a specific formula that you advocate--I 
think we talked--you talked about sending money directly to the 
MPOs, but is there any incentive program or formula that you 
would recommend?
    Mr. Becker. Yes, thank you. So I mentioned these before, 
but I think what we proposed from the local and regional 
perspective is that a greater share of the surface 
transportation funds go to local governments, and specifically, 
it's presently 75 percent, I think, going to States. And we 
believe having a 50/50 share makes a lot more sense, and brings 
everybody to the table in making the decisions about 
prioritizing our transportation funds.
    Ms. Frankel. And I--did you want to respond to that? No.
    But I come from south Florida, and one of the issues that 
comes up quite often is local governments having more 
flexibility to use some of the capital funding for operational 
funding. Would you like to weigh in on that?
    Mr. Becker. I can't weigh in on behalf of the National 
League of Cities. I will just say that I try, in my own 
budgeting, as I'm sure you did as--as mayor, to have a very 
clear line between capital and operational money, and not to 
use one-time monies for operational money, and I think if 
there's a long-term transportation funding bill that we can 
rely on, then that issue tends to go away. And providing the 
flexibility, I think, makes the most sense.
    On the other hand, if the Federal priority is for capital 
expenditures, tell us and we will follow, obviously, your 
direction accordingly.
    Ms. Frankel. Well, OK, Mr. Cox. Did you--you're shaking 
your head.
    Mr. Cox. Mr. Chairman, I'm in agreement with what the mayor 
said.
    Ms. Frankel. One of the issue--I just want to take that a 
little bit further, because what we're finding in south 
Florida, and this is probably true in most parts of the 
country, is that our population is getting older and older, and 
the need for public transportation is increasing, and will 
increase. And that seems to be where there is a shortfall in 
the budget, which is: operating funds to move public vehicles.
    Are you not allowed to say anything, because this is not a 
position that the League has taken, or----
    Mr. Becker. No, I will tell you, we see the exact same 
conditions in Salt Lake City. I can tell you on behalf of Salt 
Lake and my experience there, the elderly, the millennial 
generation is moving away from an auto-focused world, either 
out of necessity or out of desire, or different ways to stay 
connected in different ways and--we--our greatest need in our 
community is not, today, for road funding. Our greatest need in 
our community is for increased transit funding and providing 
for alternative modes of transportation.
    And to the extent as we've described even in our proposals 
with TAP funding and CMAQ funding, and other funds, you can 
both move more of that funding to the local level, where so 
much of our population lives and where conditions are changing, 
and allow us to address those needs, which can be different in 
Laramie, Wyoming, than they are in Salt Lake City or Miami-Dade 
area. We're going to be able, I think, to negotiate among 
ourselves to reflect those needs, and meet what is a rapidly 
changing desire for more options in our transportation 
infrastructure.
    Mr. Cox. Mr. Chairman, the one thing I would say here, is 
remember: $15 problem, 10 bucks to solve it. And so as we 
contemplate these further options, also remember that one size 
doesn't fit all as the mayor just--as the mayor just hinted at.
    If the program doesn't grow measurably, it will detract 
from a situation that I think is nationwide, but let me just 
tell you what Wyoming is. Wyoming is $64.5 million a year from 
keeping our transportation system, that is under State 
jurisdiction--which includes mileage in towns--in its present 
condition. Sixty four and a half million dollars a year short 
of that.
    And I believe that that's a situation that--that is 
nationwide in their numbers.
    Mr. Hardy. The gentlelady's time has expired. I'd like to 
turn the time over to Mr. Webster.
    Mr. Webster. Thank you, Mr. Chair.
    Mr. Cox, in the area of transportation-disadvantaged 
funding, there has been a GAO report from time to time 
identifying all kinds of waste, and this particular case in 
almost every one of those reports TD is mentioned. And the 
reason is because there's 87 different programs, some of which 
are--there could be one person covered by eight different TD 
programs.
    Theoretically, for instance in Orlando, Florida, where I'm 
from, that we have a new VA that's being built, a huge 
beautiful building that's almost complete, and the VA is 
working on a program where they would buy vehicles and would 
give door-to-door service for the--for any person that's in the 
system.
    On the other hand, our same provider of transit also offers 
door-to-door service. So that's just two. There's some programs 
where they cover one person, like I said, eight different 
times; same need. And theoretically, could have a transit 
vehicle going down a street picking up one person, and then 
there could be someone else, who is qualified under the same 
exact thing, being picked up by someone else.
    I just wondered if AASHTO has done anything in trying to 
grab hold of that issue at all?
    Mr. Cox. Mr. Chairman, I'm going to need to get back to you 
with information on that. I'm not prepared to answer that 
today, I'm sorry.
    Mr. Webster. OK, thank you. Then, I had one other thing, 
and that is in the area of planning, when we talk about 
regional planning, there's a lot of talk about the Governor and 
others about the fact that, you know, roads and transportation 
facilities don't end at the State line or even county lines or 
city lines, so forth; so there has to be some sort of planning.
    On the other hand, I guess we would want to maintain the 
sovereignty of the States. Has AASHTO come up with any kind of 
way where we might use some sort of either benefit or 
encouragement that would allow us to do those kind of planning 
between either States or even in other areas? Even sometimes 
there's--it's difficult to even in coordinating between 
different MPOs and others. Is there anything you've done in 
that arena?
    Mr. Cox. Mr. Chairman, if your question--Representative 
Webster, if your question is across State lines involving more 
than one State, I would have to get back to you with 
information on that. I can't answer that question, but I will 
be happy to get back to you.
    Mr. Webster. Mayor, could I ask you one question, and that 
would be from a National League of Cities standpoint, is there 
a common goal on how cities would normally get their 
transportation issues funded for your own local roads, in that 
in some cases the State gets money and some cases the County 
has a gas tax or so forth, or maybe it's even local option 
taxes or other things. Is there a--do you have--I mean, or is 
there some sort of commonality in how cities would get some 
sort of revenue sharing from that?
    Mr. Becker. I'd say there is a commonality. Certainly the 
gas tax is probably in every State, and there are probably 
different ways that it's allocated. In the State of Utah for 
example, 30 percent of the gas tax goes to counties and to 
cities.
    Mr. Webster. Do you divide that up by an interlocal 
agreement of some sort?
    Mr. Becker. It is directed in State legislation. And then 
there are other authorities, for example, in our State, for 
transit where there is a local option sales tax that at the 
community level the community can opt into. There is a 
regional--it's actually a statewide, but it operates on a 
regional basis, by opting in for local governments to 
participate in the transit program, which is regional in 
nature.
    I will say in--with your last question, the State of Utah 
developed a unified transportation plan that I mentioned 
earlier, that brought every local jurisdiction, all of the MPOs 
and the State, as well as the transit agency all together 
through a major public involvement process and thorough vetting 
and came up with a unified plan for the entire State; for all 
parts, local transit and State transportation program that has 
really served as the gathering place for us to determine what 
our needs are for the next 30 years.
    Mr. Webster. Yield back.
    Mr. Hardy. The gentleman's time has expired. I'd like to 
recognize Mr. Rokita for 5 minutes.
    Mr. Rokita. I thank the chairman. I appreciate the 
testimony. I know it looks like we're coming up on about 3 
hours of you guys--gentlemen sitting here, so I appreciate your 
patience.
    I'm new to the committee, and so a lot of folks have been 
visiting me with different interests in my office and I wanted 
to get your opinion, either your association's opinion or your 
personal opinion or both on a couple of things.
    First, regarding project labor agreements, or Davis-Bacon 
or however you want to talk about it. Is there an appreciable 
difference in quality between non-PLA projects and ones that 
are done under project labor agreements or through Davis-Bacon? 
And is there an appreciable difference in cost?
    [Pause]
    For example, I'm told--alright, via some information I'm 
receiving, that you can build 20 percent more road if you don't 
use a union. What's your opinion, as experts in the field?
    Mr. Cox. Mr. Chairman, I'm no kind of expert on union, 
because Wyoming's a decidedly nonunion State, so my experience 
doesn't stretch over that at all.
    Mr. Rokita. OK. But what's your experience in terms of your 
association?
    Mr. Cox. We would be happy to get back to you on that.
    Mr. Rokita. Oh yeah, that reminds me. When--OK, I 
appreciate that. I'm not trying to be tricky with you, but when 
can you get back with me? Can you give me a date? What's a fair 
amount of time?
    Mr. Cox. Within a week.
    Mr. Rokita. Ah, that's fine. So, within a week, I just want 
to get that on record.
    Mr. Cox. Sure.
    Mr. Rokita. And then, Congressman Webster asked a question 
that you were going to get back with him on too, do you have a 
date for that?
    Mr. Cox. Mr. Chairman, it's in our interests to get back to 
you immediately with information----
    Mr. Rokita. I know, and you guys are great at the State 
level. I don't have that same kind experience at the Federal 
level, so I just want to get--make sure we have an 
understanding of when we might get a response.
    Mr. Cox. And we'll get back to you on both of those within 
a week, sir.
    Mr. Rokita. Thank you, sir.
    Mayor?
    Mr. Becker. I just--the National League of Cities does call 
for some flexibility with the Davis-Bacon Act. On the primary 
question you're asking, in terms of additional cost, I do not 
have any information on that, I'm sorry to tell you.
    Mr. Rokita. So as a mayor, you don't--you don't find any 
appreciable difference in quality under cost?
    Mr. Becker. No. In fact, I will tell you my experience, and 
we've undergone major building projects, public projects. Salt 
Lake City-sponsored projects. We have actually found that our 
costs--that the quality control that comes through assuring 
folks have been through apprenticeship programs and have good 
training and have some standards to meet, are beneficial in our 
community.
    Mr. Rokita. OK. Thank you both.
    Dr. Babin, I thought, if I understood him right, was asking 
something maybe similar, so I apologize if I'm repeating, but I 
want to ask specifically about the concept of twin 33 trailers. 
And then specifically about the concept of increasing weight 
from 80,000 pounds to 100,000 pounds, distributing that over a 
third axle. I'm being told on the latter, for example, that 
that actually saves roads because it disperses the weight, and 
I would like your opinion on that, and again on the concept of 
twin 33s.
    Mr. Cox. Mr. Chairman, I'm not an engineer, but from an 
engineering perspective, the computation of the impact on 
pavement life by weight is by per axle. And so there is an 
argument to be made, but I can't tell you--I'm not going to 
take one position over the other.
    From our perspective, in the West, and I think across the 
rest of the States as well, the deterioration in the pavement 
based on weight--axle weight is one consideration; safety is 
another consideration. So in the whole--in the broader 
discussion of increasing size and weight and length, that has 
to be taken under----
    Mr. Rokita. And then, 10 seconds on twin 33s? Same--same 
answer?
    Mr. Cox. Same answer.
    Mr. Rokita. OK. Mayor, thank you.
    Mr. Becker. I'm sorry, I don't have anything to add to 
that.
    Mr. Rokita. Do you agree? With that answer?
    Mr. Becker. Oh, I agree with everything that Mr. Cox has 
said the entire morning.
    Mr. Rokita. Fair enough. In the remaining time I have 
left--I'm very interested in streamlining the regulation 
process, and I think Congressman Mica might have asked about 
that before I got here earlier in the hearing, but it's hard 
for me to get some pinpoint regulations to work on 
streamlining, so I'd like your opinion on any particular 
regulations that you would like to comment on and if MAP-21 is 
doing its job or not in terms of that streamlining.
    Mayor?
    Mr. Becker. First I'll say, I think MAP-21 has really been 
a step in a great direction. And I will say that at the 
Department of Transportation, they're working very hard on 
streamlining. We have a long ways to go.
    Mr. Rokita. Any particular thing I could work on?
    Mr. Becker. What I would say is, you take the Council on 
Environmental Quality guidelines for the National Environmental 
Policy Act, and make those truly the core and the basic 
requirement for all agencies and go back to those guidelines. 
We will reduce these incremental additional steps that have 
been added agency by agency, and still accomplish the same 
goals.
    Mr. Rokita. Thank you both.
    Mr. Hardy. The gentleman's time has expired. I'd like to 
give myself 5 minutes, if I could.
    Gentlemen, probably you, Mayor Becker probably, mostly 
could answer this: During our discussions, we've talked about 
light rail and alternate modes of transportation; bicycle, and 
other. With these components--we all support them, we all think 
they're great aspects of getting around. Myself, I haven't seen 
the percentage of bicyclers commuting to work on bicycles, at 
least in the West, like maybe they do in the East, but that's 
neither here nor there.
    With these alternate modes of transportation, and most of 
where the majority of our dollars are obtained, like fuel tax; 
do you see us being able to continue to sustain the type of 
transportation infrastructure that we want, to continue to fund 
these type of projects, or should we be looking at another 
alternate mode of financing for these light rail systems, for 
these bicycle transportations, and being a guy from the 
construction industry, I do know that anything tied to a 
highway, if it's a bike lane, costs just as much to put in 
place as it does--as the highway itself, because that structure 
has to be put in. I mean, if it's a designated bike lane 
outside of that right-of-way, then it is a cheaper avenue, but 
any comments on that?
    Mr. Becker. Yes, thank you. The easiest way, of course, to 
provide bike lanes is to provide the space and simply paint the 
lanes, and that is such an easy thing to do, and provides a 
basic form of safety.
    When we get to protected bikeways, then obviously the costs 
escalate pretty dramatically, but then with that as well, the 
estimate is in our analysis, and in our community and we're 
seeing is that when you provide additional safety, then people 
feel much more secure getting out on the road, and we--and the 
numbers of people going up, we've been seeing 25-plus percent 
increases a year when we start putting in additional safety 
measures. And that obviously doesn't take nearly as much space 
on a road for someone who's cycling.
    Similarly for transit, and I know my former colleague, 
who's now Speaker of the House, Greg Hughes, in testifying 
before our committee here noted that, as the leader of the 
Conservative Caucus and our State House of Representatives, he 
is the strongest advocate for transit, because it is the most 
efficient way to move people in an area. When you look at the 
number of people you can move in a single-occupant vehicle 
versus on a train or on a bus, it is a much more efficient way, 
and if we have a good transit system that is accessible and 
that is convenient, that people will use it.
    Our greatest demand, as I mentioned earlier, is for the----
    Mr. Hardy. I'd like to interrupt you just a minute. I 
agree, people are using it, we need to--it's a--educational 
process is a great thing, but if we went over to transit 
tomorrow, and everybody went 100 percent, how do we fund it, 
based on our tax dollars? That's the question I'm asking here. 
Where--we've got to look at a different--it's been paying the 
way through fuel tax for years, and I think that's been part of 
the demise.
    We haven't looked far enough in the future, how we're going 
to fund these projects, other than a fuel tax.
    Mr. Becker. So my--my basic answer would be that for buses 
it makes sense to still use the fuel tax, because buses are 
using roads just like cars.
    For rail, we use a separate--and we do actually for transit 
in the State of Utah; we use a local option sales tax. And it 
is by a vote of the people to support improvements to our 
transit service. That is required, by the way our State law 
works.
    It may be that a different source of funding is a better 
source of funding for transit, recognizing what you're saying, 
you know, a fuel tax goes to roads. And we would welcome 
whatever form you come up with and we'll support you in that.
    Mr. Hardy. Any comments, Mr. Cox?
    Mr. Cox. Mr. Chairman, let me just give you a comment, kind 
of in the highway context. You made the concession that the 
use--and I'm going to talk specifically about vulnerable users 
on the highway systems. Specifically bicyclists; that's 
something that I do. I understand it.
    Also, I'm around the planning process, and around the 
highway building process. There's no question that the use is 
up, even in a rural setting like where I live. And so even if 
there were no requirements to take that into account in our 
planning process, we would anyway, because it's a reality that 
we have to deal with there.
    I believe that there is--that that is something that--that 
would be universal among the States, and I think that--that 
when--I don't know how to answer your question about how to pay 
for something that--that isn't directly underwritten by the--by 
the user fee under today's construct, but I would tell you that 
it's something that we have to pay attention to.
    I also believe, that--because this is the world we live in, 
in--in Wyoming, is that some of those accommodations can be 
readily made with safety measures on the existing roadway, and 
when you improve and add enough to not greatly spread the cost, 
but accommodate both types of user.
    Mr. Hardy. Thank you. My time has expired also.
    Are there any further comments from the committee members?
    Seeing none, I would like to thank the witnesses. I really 
do appreciate your being here. I think your responses and your 
testimony today, your contribution today as discussed has been 
very informative and helpful.
    I'd like to ask for unanimous consent that the record of 
today's hearing remain open until such time that other 
witnesses have provided answers to any questions that may be 
submitted to--in writing, and the unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by the Members and the witnesses to be 
included in the record of today's hearing.
    Without objection?
    Seeing none, so ordered.
    If there are no other Members having anything to add, the 
committee stands adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                           [all]
                           
                           
    
                                    
</pre></body></html>
